<html>
<title> - CIVILIAN STRATEGY FOR AFGHANISTAN: A STATUS REPORT IN ADVANCE OF THE LONDON CONFERENCE</title>
<body><pre>[Senate Hearing 111-759]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-759

 CIVILIAN STRATEGY FOR AFGHANISTAN: A STATUS REPORT IN ADVANCE OF THE 
                           LONDON CONFERENCE

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 21, 2010

                               __________

       Printed for the use of the Committee on Foreign Relations





<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html




                  U.S. GOVERNMENT PRINTING OFFICE
  62-929 PDF              WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       BOB CORKER, Tennessee
BARBARA BOXER, California            JOHNNY ISAKSON, Georgia
ROBERT MENENDEZ, New Jersey          JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         JIM DeMINT, South Carolina
ROBERT P. CASEY, Jr., Pennsylvania   JOHN BARRASSO, Wyoming
JIM WEBB, Virginia                   ROGER F. WICKER, Mississippi
JEANNE SHAHEEN, New Hampshire        JAMES M. INHOFE, Oklahoma
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        








                            C O N T E N T S

                              ----------                              
                                                                   Page

Holbrooke, Hon. Richard, Special Representative for Afghanistan 
  and Pakistan, Department of State, Washington, DC..............    31
    Prepared statement...........................................    36
    Responses to questions submitted for the record by Senators:
        Richard G. Lugar.........................................    50
        Russell D. Feingold......................................    63
        Robert P. Casey, Jr......................................    65
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
Miliband, Hon. David, Secretary of State for Foreign and 
  Commonwealth Affairs, United Kingdom...........................     5
    Prepared statement...........................................     8

                                 (iii)

  

 
 CIVILIAN STRATEGY FOR AFGHANISTAN: A STATUS REPORT IN ADVANCE OF THE 
                           LONDON CONFERENCE

                              ----------                              


                       THURSDAY, JANUARY 21, 2010

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to the notice, at 3:02 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Dodd, Cardin, Casey, Shaheen, 
Kaufman, Lugar, and Risch.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    We are absolutely delighted today to have David Miliband, 
the Foreign Secretary of the United Kingdom, here with us. He 
and I have worked closely together on Afghanistan and a variety 
of other issues, and I am personally grateful for the 
relationship that we share and grateful for his friendship and 
that of his wife Louise also, and grateful for their 
hospitality when we've once or twice, I guess, been able to 
stop by in London.
    Normally, the Foreign Relations Committee has not 
entertained the testimony of leaders from other countries. But 
there's no real reason why that has been the case, and I don't 
think it makes sense, which is why we're delighted to welcome I 
think the first ever appearance of the Foreign Secretary of the 
United Kingdom before this committee, because it is a way of 
informing us and the public, and in democracies, needless to 
say, it is vital for us to have that kind of dialogue. So we 
believe that this is a terrific way of joining with one of the 
longest and strongest allies that we have in helping to explore 
difficult policy questions that both of our countries, and 
therefore our citizens, face.
    We hope that today's hearing will be helpful in bringing 
greater understanding to people of the global views and 
challenges as they are interpreted by different governments and 
by us together.
    Following the Foreign Secretary, we're going to hear from a 
very familiar and well-respected presence before this 
committee, the President's Special Representative for 
Afghanistan and Pakistan, Ambassador Richard Holbrooke. He is 
here to discuss, having just come back literally today, 
arriving back from a six-nation tour--he is here to discuss the 
administration's new Afghanistan-Pakistan regional 
stabilization strategy.
    We're delighted to welcome the Ambassador from the United 
Kingdom here today with us also.
    Today's hearing comes as a leadup to the London 
international conference next week, which will focus on 
coordinating and strengthening all of our nonmilitary efforts 
in Afghanistan. We look forward to hearing from both witnesses 
about what can be accomplished in London and beyond.
    All of us recognize the enormous sacrifices that the United 
Kingdom has made in Afghanistan. Mr. Secretary, we want to say 
thank you to you and to your country for your efforts in unison 
with us and with many other countries. We are especially 
grateful for the sacrifices made in the turbulent southern 
part, the heart of the Taliban insurgency. Some 250 British 
soldiers and civilians have given their lives since 2001. We 
are enormously grateful for their contribution to our shared 
security and we are grateful to you and to Prime Minister Brown 
for your continued commitment to our shared mission.
    In December the President explained his decision to send 
additional troops to Afghanistan and, as I said then and as the 
President knows well, no purely military strategy in 
Afghanistan will succeed, and I know you have said that and 
agree with that, Mr. Secretary. The military is only one 
component in defeating an insurgency. That is why at every turn 
we need to empower Afghans to take control of their future.
    That is the rationale that guided the conditions that I 
personally set out with respect to the deployment of new troops 
and which I believe still holds today: the presence of reliable 
Afghan partners, both political and military, and the civilian 
capacity to make our military gains sustainable.
    As additional troops arrive and the new strategy is 
implemented, this committee will be closely monitoring our 
progress and our plans. Let me be clear. As the United States 
and our coalition partners increase our troops in Afghanistan, 
we and our partners are also sending more civilians to 
translate those efforts into lasting gains for the people of 
Afghanistan. But this civilian surge will also demand strong, 
coordinated, and cooperative leadership and participation from 
all of our allies, and we look forward to exploring that with 
you today, Mr. Secretary.
    Next week's London conference is a real opportunity for the 
international community to commit itself to a coherent civilian 
strategy and to unified purposes. Ultimately, nothing will do 
more to bring success than helping to build effective Afghan 
institutions and leadership.
    At President Karzai's inauguration, he renewed his 
commitment to strengthening the government's capacity, pushing 
for lasting reforms and addressing the problems caused by 
corruption at every level. He made these promises, not just to 
the United States and other key donors, but more importantly to 
the Afghan people. The coming weeks will tell us a great deal 
about the depth of President Karzai's commitment to reform.
    His selection of Cabinet officials is cause for both hope 
and concern. Effective officials were chosen for a number of 
key seats, but others did not always appear to be selected on 
their merits. One positive sign is that the Afghan Parliament, 
which rejected several Cabinet nominees, is playing its 
intended role as a check on the executive branch.
    We can also expect new political challenges ahead. 
Parliamentary elections are scheduled to take place this year, 
but absent real electoral reforms and an improved security 
climate, we risk repeating the problems that plagued the 
Presidential contest of last August. So we're eager to hear 
from our witnesses what efforts are under way to improve that 
process.
    Better governance outside of Kabul is also vital. Real 
reform means appointing effective leaders at the provincial and 
district levels. They and the officials carrying out their 
orders are the only point of contact that most Afghans have 
with their government. A new survey by the United Nations found 
that one of every two Afghans paid a bribe to a public official 
in the last year. Graft has become a part of everyday life, and 
that must stop.
    Alongside better governance, our civilian strategy needs to 
promote basic sustainable development. Many of us have 
expressed concerns about undertaking an unrealistic nation-
building mission in one of the poorest countries on earth. But 
if we can provide basic development to meet pressing needs, we 
will go a long way to winning over the Afghan people and 
preventing the Taliban from exploiting popular frustrations. 
That is why we must support projects with a proven track record 
of success, like the national solidarity program, which has 
earned praise from Afghans and international observers alike.
    Finally, as we continue to improve our civilian partnership 
we should recognize that we have already accomplished a great 
deal together. For example, USAID in partnership with the 
British Department for International Development and the Afghan 
Government have turned the 2-kilometer gravel Bhost airstrip 
into a bustling civilian tarmac that will create enormous new 
economic possibilities for the people of Helmand for years to 
come.
    We are all committed to succeeding in Afghanistan and 
strengthening partnerships with key allies like the United 
Kingdom, and that is central to our effort. So we look forward 
to hearing from you, Mr. Secretary.
    I'll just ask Senator Lugar if he has any opening comments, 
and then we'll look to your testimony.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman. I join 
you in welcoming our distinguished guests to the committee. 
Foreign Secretary David Miliband will be playing a leading role 
in the London Afghanistan Conference on January 28. We look 
forward to learning his views on how this conference can 
contribute to strengthening and stabilizing Afghanistan. The 
civilian component of the multinational effort in Afghanistan 
has been neglected somewhat as discussion of the way forward 
has centered on military resources. The London Afghanistan 
Conference is an opportunity to consolidate the civilian 
response in ways that achieve greater accountability and more 
demonstrable progress in developing the country. The proposal 
for the London conference called on participants to ``formulate 
a joint framework for our transition phase in Afghanistan; 
i.e., to set our expectations of ownership and the clear view 
to hand over responsibility step by step to the Afghans, 
wherever possible.'' This goal is reflected in the multilateral 
civil-military effort in Afghanistan that is employing the new 
``clear, hold, build, and transfer'' strategy. This new 
paradigm for operations requires leaders and their governments, 
as well as our Afghan partners, to understand their respective 
roles and the means by which those goals can be accomplished.
    The London conference is a crucial opportunity for 
President Karzai to improve cooperation with international 
efforts in his country, while recognizing his own 
responsibility to enable reform. He must find the means to 
consolidate disparate influences within his own government in 
the pursuit of national development. Too often during the last 
decade, development efforts in Afghanistan have been 
disconnected and uncoordinated. International donors must agree 
to consolidate their efforts, narrow their focus, and harmonize 
their programs in order to achieve a common end with the Afghan 
people. An inconclusive outcome in London, lacking in 
specificity and effective guidelines, will diminish the 
likelihood of success in the coming years.
    I look forward to hearing Ambassador Holbrooke's thoughts 
on the details of the new Afghanistan and Pakistan Regional 
Stabilization Strategy. Given the cost and security 
ramifications of our efforts in the region, this strategy must 
include strong accountability elements. It is important that 
our collective programs in Afghanistan and Pakistan be 
effectively monitored and measured against a definable set of 
metrics. The United States has assigned numerous senior-level 
officers, ambassadors, and mission directors to Afghanistan and 
Pakistan, and these individuals have extensive experience in 
developing and coordinating programs across our agencies. They 
must also serve as efficient conduits of information and 
evaluation back to Washington about how programs are working. 
At the encouragement of Congress, USAID and the State 
Department have expanded their inspector general presence in 
these countries, which is certainly a good first step.
    A new approach to foreign aid is emerging as a priority 
within the Obama administration. This approach aims to reduce 
reliance on foreign contractors and channel more resources 
through local governments. As development experts have long 
suggested, the goal of such a strategy is to reduce the 
overhead costs of our assistance and empower civilian 
governments with resources flowing through, rather than around, 
their institutions. It is reasonable to consider this approach 
in Afghanistan and Pakistan, but we should be mindful that 
institutions in these nations have very little history of 
effective oversight and accountability. To the extent that we 
funnel resources through these governments, we will require 
creative and robust oversight mechanisms. I hope Ambassador 
Holbrooke will make clear today, for example, how the expected 
$200 million in education programming slated for Pakistan this 
year will be monitored. Similarly, members would gain 
confidence if Ambassador Holbrooke could walk us through how 
the more than $300 million slated for the agriculture sector in 
Afghanistan will be overseen as it is dispersed across a 
volatile country.
    While the military reform process has shown considerable 
progress and NATO/ISAF continues to professionalize the Afghan 
National Army, there are two crucial civilian sectors that must 
be thoroughly reformed. The first is agriculture, the mainstay 
of Afghanistan's legitimate economy, which must be revitalized 
if Afghans are to create jobs, feed the population, and deliver 
income for the country. The second is human security and 
justice, which have long been neglected. The rule of law must 
be a product of an essential social contract that extends 
across the traditional landscape and integrates governing 
institutions such as the police and the courts.
    Ambassador Holbrooke has spent much time traveling within 
the region seeking greater cooperation for stabilizing 
Afghanistan. I look forward to his testimony on efforts to 
convince Pakistani leaders of the importance of cooperation and 
the opportunities that stem from our partnership in routing 
terror elements in Pakistan. He has also engaged in a broader 
diplomatic effort to build financial and technical support for 
Afghanistan. He has spent a great deal of time since his 
appointment flying from the Gulf States in the Near East to 
Europe and Russia, as well as Japan and India. We are eager to 
learn more of the impact of his outreach and hope the London 
conference will serve as a rallying point for significantly 
increased participation, especially from the Muslim world.
    I thank the chairman again for this hearing and look 
forward to our discussion.
    The Chairman. Thank you, Senator Lugar.
    Mr. Secretary, again thank you for being here. It's a great 
privilege for us and we look forward to your testimony.

 STATEMENT OF THE RIGHT HONORABLE DAVID MILIBAND, SECRETARY OF 
   STATE FOR FOREIGN AND COMMONWEALTH AFFAIRS, UNITED KINGDOM

    Mr. Milliband. Mr. Chairman, Senator Lugar, Senator 
Kaufman, Senator Shaheen. It's a great honor for me and for my 
country to be able to appear here in front of you today. I 
associate myself very strongly with the sentiments and the 
substance of both of your remarks. I am conscious of the 
expertise and the experience that exists in this committee. We 
followed your hearings and your visits, your analysis and your 
reports, very closely, and I know that they have helped to 
shape the debate in this country. I can assure you they have 
also had an impact outside this country, in Europe and in my 
country in particular.
    In that context, as cochairman of the London conference I'm 
delighted to be here today so that your input can be added to 
others in advance of that important occasion next Thursday.
    As you know, the United Kingdom is the second largest troop 
contributor in Afghanistan and the third largest financial 
contributor. Our armed forces and our civilians have suffered 
grievous losses, especially over the last year, in both of our 
countries, and it's right to acknowledge the scale of their 
bravery and of their sacrifice, and I very much appreciate the 
words of the chairman in that regard.
    That sacrifice shows us the scale of the stakes in 
Afghanistan at the moment. But of course the stakes are wider 
for our national security, for the integrity and purpose of the 
NATO alliance, and for one of the most explosive regions of the 
world, South Asia, because of course Afghanistan and its 
neighbors--Afghanistan's stability matters hugely to its 
neighbors.
    It's the regional significance of the conflict that 
explains why I made the sixth of my visits to Pakistan as well 
as to Afghanistan the weekend before last.
    Mr. Chairman, I think that following the inauguration of 
President Karzai and then the speech of President Obama 
everybody realizes we're now in a decisive moment in the Afghan 
campaign--decisive because the imperative of aligning a 
successful civilian strategy alongside the military strategy is 
now very clear to all. It is the decisive nature of the times 
in which we live that explains Prime Minister Brown's decision 
to call the London conference and to give it the very strong 
focus on the development of a political strategy within which 
the military and civilian components can sit.
    My written testimony goes into some detail about the nature 
of that political strategy and I just want to highlight three 
elements for you this afternoon. The first relates to the 
loyalty and commitment of the Afghan people to their own 
government. It's a founding part of any counterinsurgency 
doctrine that the loyalty of the citizens of the country are 
the greatest resource of all.
    Some of you will have seen the recent poll conducted by the 
BBC and ABC of Afghan citizens in 34 provinces. It was 
published last week. It showed overwhelming determination on 
the part of the Afghan people not to go back to Taliban 
misrule. But it also showed very high levels of dissatisfaction 
with corruption in the governance and policing system.
    So in seeking to retain the loyalty of their own citizens, 
it's important to recognize that the Afghan Government doesn't 
just need to avoid being outgunned by the insurgency; it must 
not be outgoverned by the insurgency either. For us that speaks 
first to the need to tackle corruption at all levels; second, 
to achieve much greater focus on district and provincial 
governance. Afghanistan is a country of 364 districts and 34 
provinces. Each and every one needs effective governance to 
serve its people.
    Governance needs to extend beyond the formal sectors of the 
state to include the informal structures that are so important 
in a tribal society. That society has been ravaged by 30 years 
of civil war, but the community structures remain important.
    I think it's worth saying that at the moment there is an 
attempt to support governance on the cheap. In the last year 
for which figures are available, some $33 million was spent by 
the Institute for Development and Local Governance, the key 
part of the Afghan governance machinery that supports local 
governance. That's less than $1 million per province, and that 
explains some of the figures in my statement about the number 
of district governors who don't have an office or don't have 
proper transportation.
    The second part of an effective counterinsurgency strategy 
on the political side is an effective route to dividing the 
insurgency. That is important, especially important in the 
Afghan context, because the insurgency is not a monolith. It's 
different insurgent groups and within insurgent groups 
differences as well: full-time fighters from outside the tribe, 
local part-time fighters, narcotraffickers and poppy farmers, 
as well as people rented for $10 a day to fight for the 
insurgency.
    The commitment to reintegration, to bringing those fighters 
back into their communities, is a widely shared aspiration, not 
just in Afghanistan but in the international community. From 
our point of view, three things are essential to make it 
happen: first of all, security pressure, because reintegration 
is not an alternative to military pressure, it is a complement 
to it; second, the right offer to the insurgents, the chance to 
have protection, but also employment and a political say within 
their own communities; and third, an effective Afghan-led 
strategic framework within which reintegration can take place.
    Mr. Chairman, the third part of an effective political 
strategy speaks to the role of the neighbors of Afghanistan and 
above all its eastern neighbor, Pakistan. I know that for you 
and for Senator Lugar the importance of Pakistan is very, very 
clear, and I would like to place on record our very strong 
support for the extraordinary leadership that you've shown and 
your committee's shown in piloting the Kerry-Lugar bill through 
the Senate and for putting on the table the offer of a renewed 
relationship between the United States and Pakistan.
    We know that Pakistan matters, not just because it is the 
location for the Afghan Taliban leadership. It's also important 
in its own right. It's the base for al-Qaeda. It's a nuclear 
weapons state with the long-term risk of radicalization, and it 
has huge demographic and economic challenges.
    I believe that the last year has shown a major change in 
approach from the Afghan civilian and military leadership, 
recognizing the mortal threat that's posed to the Pakistani 
state from within its own borders. The strategic reorientation 
of Pakistan has some way to go, but I believe that the efforts 
that are being made now in South Waziristan show the level of 
commitment that the Pakistani authorities are willing to devote 
to what is a long-term struggle for the survival of that 
country.
    We believe, Mr. Chairman, that there is a real possibility 
of developing shared interests between the neighbors of 
Afghanistan and Afghanistan itself, founded on a commitment to 
respect to sovereignty and independence of Afghanistan. Crime, 
drugs, and insecurity are no respecters of borders in South 
Asia and it's very important that we use the London conference 
to bring the neighbors of Afghanistan with the regional powers 
together to start a more positive process of dialogue.
    Mr. Chairman, let me conclude with some of the deliverables 
that we hope to achieve in next week's conference. First of all 
on security, we believe it's very important to give substance 
to the idea of the transfer of lead security responsibility in 
Afghanistan. This is central to the commitment of all of our 
countries to build up Afghan security forces sufficient to 
defend their own country.
    I also believe that we should use the conference next week 
to give international support to Afghan-led reintegration 
efforts, both the program and the structures that I hope 
President Karzai will announce between now and next Thursday.
    On governance and development, President Karzai has said 
that he wants to end the, ``culture of impunity'' that has 
existed in his country with respect to corruption. That needs 
international support. There also needs to be independent 
oversight to reinforce accountability in the Afghan system. In 
addition, I believe that moves on debt relief and development 
assistance could be a credible part of a positive offer to the 
Afghan people.
    On regional cooperation, as I have just mentioned, a 
commitment by the countries of the region to take more active 
steps to promote the political and economic stability of 
Afghanistan is essential. There is also a challenge for the 
international community, which needs to up its game both in 
terms of the coordination of its effort and its effectiveness. 
It will be very important to take forward new appointments 
which are pending in the U.N., NATO, and the European Union.
    However, Mr. Chairman, I believe that the biggest 
deliverable of all from next week's conference is an 
understanding among the 70 or so Foreign Ministers who are 
attending, and also I hope the wider public, of the coherence 
and clarity of the plan for the future of Afghanistan. The 
confidence of the international community and the plans that 
have been developed, set out by President Obama, needs to be 
carried forward to maintain confidence in the future.
    Mr. Chairman, as you indicated, the alliance between the 
United States and the United Kingdom is deep and enduring. The 
sacrifices of the last century are now being matched by new 
sacrifices in this century. Last weekend in Afghanistan, both 
in Kabul and in the south, I saw the depth of the Anglo-
American relationship at work. I saw it at the military level, 
but I also saw it at the civilian level.
    I'm also delighted to be able to acknowledge the 
cooperation that exists between London and Washington, not just 
between myself and Secretary Clinton, who I've just met, but 
also the outstanding efforts of Ambassador Holbrooke to ensure 
that the wider world understands the significance of the Afghan 
campaign, because this is not just a U.S.-U.K. venture. Forty-
three nations are contributing on the military side, over 60 on 
the civilian side. We need to send out a very strong message 
that all of those countries need to make their full 
contribution for the success of the effort.
    Mr. Chairman, the challenges in Afghanistan are immense. It 
is a poor, tribal society, very different from our own. But its 
recent history and its place at the heart of South Asia mean 
that alternatives to a thorough military-civilian engagement 
are far, far worse. The plans in place need effective and 
sustained implementation, and it is to that goal that the 
London conference has been called and to that goal that the 
London conference will be judged.
    Thank you very much indeed.
    [The prepared statement of Mr. Miliband follows:]

 Prepared Statement of Rt. Hon. David Miliband, Secretary of State for 
            Foreign and Commonwealth Affairs, United Kingdom

    The London Conference on Afghanistan will bring together over 70 
countries and international organizations to discuss the partnership 
between the international community and the Afghan Government and 
people. I am immensely grateful to the committee for the opportunity to 
hear its views on the aims and objectives.
    The United Kingdom has been part of the international effort in 
Afghanistan since the passage of UNSCR 1368 after 9/11. Over 10,000 
U.K. troops are deployed predominantly in Helmand province in the South 
of the country--the second-largest military contribution in 
Afghanistan. Our aid program for the next 3 years exceeds $830 million, 
making us the third-largest contributor financially--after the United 
States and Japan.
    It is right to pay tribute to the skill, dedication and bravery of 
all armed forces and civilians serving in Afghanistan.We owe them--and 
their families--a debt of gratitude. I would also like to honor those 
who have fallen in Afghanistan--from the British, American and other 
international soldiers, and the civilians that work alongside them, to 
the members of the Afghan National Army and Afghan civilians caught in 
the cross-fire.
    The war in Afghanistan, and the related challenges in Pakistan, are 
the No. 1 one foreign policy priority for the British Government. 
Progress is vital for our national security. The election of a new 
Afghan Government and the increased U.S. resources in support of a 
refreshed counterinsurgency strategy, make the next 12-18 months a 
decisive period. That is why the British Prime Minister has convened 
the London Conference on Afghanistan on January 28.
    As cochair of the Conference, I set out in this note British 
thinking in three areas. First, the rationale and objectives of the 
international mission in Afghanistan. Second, how military and civilian 
resources can support a political strategy in Afghanistan. Third, our 
vision for the London Conference on Afghanistan and how it will drive 
forward progress on (a) security, (b) governance and development, and 
(c) regional cooperation.
                        rationale and objectives
    With al-Qaeda pushed out into Pakistan's tribal areas, the original 
rationale for the war in Afghanistan--to ensure the country is not a 
safe haven again for
al-Qaeda and global terrorism--has come under scrutiny.
    We do not conflate or confuse al-Qaeda and the Taliban. The Taliban 
government in Afghanistan in the 1990s provided a supportive 
environment for the al-Qaeda senior leadership. But the Taliban 
leadership do not have as their principal aim
al-Qaeda's violent global jihadist agenda. The vast majority of its 
low- and mid-level fighters are certainly not motivated by it. Their 
aim is the withdrawal of foreign forces from Afghanistan and the 
reestablishment of an Islamic Emirate based on shari'a law. But the 
symbiosis of the Taliban and al-Qaeda senior leadership, and the 
history of al-Qaeda organization in Afghanistan, explain why we 
continue to see the war in Afghanistan as critical to the fight against 
al-Qaeda. The 1,600 mile Afghan border with Pakistan, the presence of 
al-Qaeda's senior leadership in Pakistan's border areas, and the links 
between the two countries, means that their stability needs to be 
addressed together.
    The definition of success is clear: it is not to kill or capture 
every member of the Taliban. It is to ensure the Government of 
Afghanistan is able to secure its territory against a weakened 
insurgency, and deny al-Qaeda the space to operate.
    The alternatives to a comprehensive counterinsurgency strategy are 
not attractive. Retreat now would invite danger for the region and for 
our own countries. But the challenges of counterinsurgency are 
immense--it requires realistic objectives aligned with substantial 
international and Afghan resource and effort. It is this alignment 
which this note addresses.
                           political strategy
    The British Government believes that military and civilian 
resources need to be marshalled behind a clear political strategy: 
political, because it involves shifting the motivations, relationships 
and behaviors of critical stakeholders and powerbrokers. There are 
three dimensions to this.
    First, the aspirations and loyalties of ordinary Afghans need to be 
engaged in defence of their country against the Taliban. Second, the 
insurgency needs to be divided, separating those insurgents motivated 
by narrow national and local objectives, and whose aims could be 
accommodated within the Afghan political system, from those unwilling 
to break with al-Qaeda. Third, with the leaders of the Afghan Taliban 
in Pakistan, the international community needs to engage with Pakistan 
and Afghanistan's other neighbors to promote enduring stability.
    A political strategy is not separate from a military strategy. 
Indeed, military and civilian resources are critical contributors to 
it. Reassuring citizens that the Taliban will not return requires 
security, but also governance that responds to their most pressing 
needs. Dividing the insurgency requires military pressure, but also 
economic and political opportunities. Regional dynamics are affected 
both by our military presence and by diplomatic outreach. A political 
reconfiguration, however, is the lens through which our military and 
civilian surge must be seen.
                      reassurance through security
    Our greatest resource in Afghanistan is the determination of the 
Afghan people not to return to Taliban rule. In a recent poll only 6 
percent of those asked wanted the Taliban back in power. Despite this, 
many civilians turn a blind eye when they see IEDs being laid, or 
refuse to inform on the insurgents in their midst. The reason is 
simple: they fear Taliban retribution if they are caught.
    Building a sense of security and confidence that the Taliban will 
never again be able to return is therefore critical to mobilizing 
Afghan citizens to resist them. This also must have three dimensions: 
the security provided by international troops; the protection offered 
by the Afghan National Security Forces; and the defense provided at the 
local level by community security initiatives.
    President Obama's counterinsurgency strategy, combined with the 
increased coalition troop numbers (which means that since the start of 
2009 there will be 51,000 more U.S. troops, and 7,800 more from other 
countries, including the U.K.) is allowing ISAF to reconfigure its 
laydown and increase the tempo of its operations.
    The impact in Helmand--where 8,000 British troops are based--is 
already being felt. Helmand is the only southern province which 
provides a potential strategic platform for theTaliban to dominate 
Kandahar. It has accounted for over a third of all attacks in 
Afghanistan, yet a year ago there were only 5,000 ISAF troops in 
Helmand with very few Afghan National Security Forces alongside.
    With the deployment of the U.S. Marine Expeditionary Brigade to 
Helmand in April 2009 and President Karzai's commitment to increase 
significantly the Afghan National Army and Police numbers in the 
province, by next summer these figures will have risen to around 30,000 
and 10,000 respectively. This means that ISAF is increasingly able to 
help the Afghan Government extend its authority into critical 
population centres in the central Helmand belt--including districts 
surrounding the provincial capital in Lashkar Gah, such as Babaji and 
Nad-e-Ali. And it means that international forces can both ``clear'' an 
area and train and mentor the Afghan national security forces to 
``hold'' it.
    Since 2007, the international community has invested heavily in 
building up indigenous security forces. The Army now numbers over 
100,000 and the police, 96,000. Increasing them to 134,000 and 109,000 
by the end of 2010 is necessary. But quality and conduct matter as much 
as size. That is why the focus on partnering with the Afghan National 
Army--working side by side on operations--is essential.
    However much national security forces are built up, they will not 
have a monopoly of force in a country like Afghanistan. In such an 
underdeveloped country, where tribal allegiances are often stronger 
than national affiliations, local community-based security initiatives 
are inevitable. In many cases, Afghan tribes have the desire to resist 
the Taliban. The international community cannot ignore or decry this 
effort, and in some circumstances will need to consider support for it.
                     reassurance through governance
    Establishing security is necessary, but not enough if Afghan 
civilians are to turn their backs on the insurgency. They need to 
believe that the fragile improvements will endure and strengthen.
    In areas recaptured from the insurgents, this must start with 
immediate post-intervention stabilization. Over the last decade, both 
our countries have learned important lessons in this area. Together, we 
have been putting these lessons into practice in Helmand. From the 
emphasis on local capacity (without which no amount of quick impact 
projects or infrastructure development can survive), through to 
community engagement at the grassroots level (with District Governors 
and District Community Shuras supported by District Stabilization 
Teams), or integrated civ-mil planning (so that stabilization experts 
can be on the ground within 24-48 hours of a military campaign), many 
aspects of our collective approach are now being rolled out elsewhere 
in Afghanistan.
    It is no surprise that in a recent BBC-ABC-ARD poll, Afghans 
identified security as the biggest problem their country faced. But the 
economy was not far behind, and corruption and weak governance came 
third. The Taliban need to be out governed not just out-gunned.
    Forty-two percent of Afghans live on less than a dollar a day. In 
some parts of the country, there are few credible alternatives to the 
drugs trade or mercenary activity. Helping the Afghans build schools, 
provide clean water, electricity and roads is worthwhile in its own 
right, but will also help to draw people away from the insurgency. That 
is why over the next 4 years the U.K. will spend over $800 million on 
development assistance. And it is why the U.K. has pushed so hard for 
the European Commission and EU Member States to increase their aid--
which now stands at over $1.3 billion a year.
    However it is not just about the quantity of assistance, it is also 
about how it is spent. If such services are to outlast the 
international presence, they need to be administered by the Afghan 
Government. Yet in large parts of the country, district governance is 
almost nonexistent; half of the governors do not have an office, less 
than a quarter have electricity, and some receive only $6 a month in 
expenses. In such circumstances, the Taliban gain traction, with shadow 
governors allocated to all provinces except Kabul and a substantial 
district level network in place.
    There are already a number of effective schemes to support 
subnational government under the supervision of the Independent 
Directorate of Local Governance, including the Afghan Social Outreach 
Programme (delivering District Community Shuras) and the District 
Delivery Working Group (which supports immediate capacity to deliver 
basic services in insecure districts). But so far these schemes have 
been patchy, and inadequately funded.
    So, in the coming months and years, a more coherent strategy needs 
to be developed. The focus should be on selecting and training, 
empowering and equipping, and mentoring and monitoring the 34 
Provincial Governors and the 364 District Governors, just as it is with 
the Army and the Police. The international community needs to help 
Afghans create truly representative local shuras, that can help 
distribute development funds and provide the collective dispute 
resolution that the Afghans want when they talk about the rule of law. 
This will require significantly more funding for local government--in 
2008 each province had less than $1m to spend on local administration.
    There is a unanimous message from the people of Afghanistan and the 
international community that the Afghan Government needs to turn its 
words on tackling corruption into deeds. According to the recent BBC-
ABC-ARD poll, 95 percent of Afghans see corruption as a problem in 
their local area. Such widespread abuse has deep roots and cannot be 
cured overnight. But it is vital that President Karzai follows through 
his promise to tackle the culture of impunity with serious steps. The 
new anticorruption unit needs real powers both to investigate and to 
prosecute.
                             reintegration
    Just as the insurgents can be split from the ordinary Afghans who 
offer them tacit support, so too can the insurgency itself be divided, 
with foot soldiers, low- and mid-level commanders reintegrated back 
into society and separated from insurgent leaders.
    As President Obama said at the end of March, ``in a country with 
extreme poverty that's been at war for decades, there will also be no 
peace without reconciliation among former enemies . . . There is an 
uncompromising core of the Taliban. They must be met with force, and 
they must be defeated. But there are also those who've taken up arms 
because of coercion, or simply for a price. These Afghans must have the 
option to choose a different course.''
    The prospects for reintegration are significant because the 
insurgency is not a monolith. It is a broad but shallow coalition, 
constantly evolving, with shifting relationships, geographical bases, 
and tactics.
    The Afghan Taliban leadership is based primarily in Pakistan. 
Senior commanders there, under the leadership of Mullah Omar, provide 
strategic direction to insurgents over the border, if not operational 
command, directed at retaking territory and power in Afghanistan. The 
so-called Pakistan Taliban, a loose collection of insurgent leaders 
mainly in Waziristan, are primarily focused eastward against the 
authority of the Pakistani state. Al-Qaeda coordinates tactically with 
both branches of the Taliban, but has a separate mission and religious 
ideology, focused on mounting terrorist attacks outside the Pashtun 
tribal belt. The Haqqani network is linked to all the insurgent groups, 
and is based in Waziristan, but able directly to command and mount 
attacks in Afghanistan.
    Within these insurgent groups, there is also heterogeneity. In the 
Afghan Taliban, trained full-time fighters, often drawn from several 
tribes and reinforced by foreign fighters, have more ideological 
motivations than local part-time fighters, drawn from a particular 
village or tribe, operating often in pursuit of their own profit or 
power, or driven by local loyalties and ethnic affiliations. Alongside 
the fighters, there are shadow governors who provide intelligence, or 
intimidate those who support the government; warlords and aspirant 
powerbrokers who believe that the Taliban will win, and so position 
themselves for their own political advantage; narcotraffickers who rely 
on the Taliban for protection and the safe passage of drugs; poppy 
farmers who ally with the Taliban because they protect them from 
eradication efforts; and the foot soldiers whom the Taliban pay $10 a 
day--more than a local policeman.
    Repeated, intelligence-led strikes against particular key positions 
in the insurgent hierarchy can force low and mid-level commanders to 
reassess their interests. This requires careful work. For example, 
Ghulam Yahya, a Taliban commander in Herat leading 600 fighters, was 
killed last October in an ISAF strike and his deputy was arrested by 
the Afghan National Police. Leaderless, the structure of the group 
started to disintegrate, and former fighters returned to their 
villages, leaving an opportunity for reintegration.
    Pressure can be applied by international and Afghan forces, but it 
can also be applied through local communities resisting the Taliban, 
thereby creating the conditions for insurgents to switch sides. For 
example, in Acheen, a small district in Eastern Afghanistan, when the 
Taliban demanded that a tribal leader's son be handed over for joining 
the Afghan National Army, the Shinwari tribe drove out the Taliban, and 
conducted a local peace jirga with the Afridi tribe over the border in 
Pakistan. The area has now been free from the Taliban for 6 months.
    In Acheen, the role of ISAF was minimal, providing boots and warm 
jackets so that the local people could patrol the outlying areas, and a 
promise that they would provide backup if the Taliban launched a major 
offensive. Across Helmand, however, the model has been different, 
involving much more intensive military engagement. Last summer, the 
U.S. Marine Expeditionary Brigade was deployed in South Helmand with 
such force density that it was able to have an immediate impact on 
security and the calculations of ordinary Afghans and low-level 
insurgents.
    Alongside military force and community mobilization to apply 
pressure, reintegration requires incentives: the offer of protection 
from retaliation by former allies and alternative employment. This 
demands a structured program that targets the right people, and ensures 
that the support continues over time. In some cases, reintegration may 
involve relocation and deradicalization programs. The international 
community can provide valuable support--for example, through the 
creation of the Afghan Reintegration Fund--but ultimately this must be 
a process led by the Afghan Government. An immediate priority is 
therefore to develop a strategic framework with President Karzai for 
reintegration. This will need to assign clear lead responsibility for 
reintegration within his government, with a dedicated organization 
geared to reaching out to insurgents.
    Reintegration refers specifically to the co-option of foot 
soldiers, low- and mid-level commanders. Done successfully and at scale 
it can weaken the insurgency and lay the ground for more senior members 
to switch sides. When it comes to higher level commanders, the Afghan 
Government needs to separate the hard-line ideologues, who are 
unwilling to break their links with al-Qaeda, and who must be pursued 
relentlessly, from those who can be drawn into domestic political 
processes. President Karzai committed himself to this in his 
inauguration speech, ``the Islamic Republic of Afghanistan has placed 
national reconciliation at the top of its peace-building policy. We 
welcome and will provide necessary help to all disenchanted compatriots 
who are willing to return to their homes, live peacefully and accept 
the Constitution.''
    Reconciliation involves difficult decisions about motivation and 
justice. But the evidence of successful counterinsurgency is that it is 
necessary for political stabilization. In Afghanistan, it will need to 
be led by Afghans and supported by the international community.
                          regional cooperation
    The third element in weakening the insurgency is a new relationship 
between Afghanistan and its neighbors.
    The fighters within Afghanistan draw on external funding, support, 
and shelter. Militants move freely across the border with Pakistan. The 
insurgencies in the South and East of Afghanistan are directed partly 
from across the border in Quetta, Peshawar, and Waziristan.
    The Pakistani offensives over the last year in Swat, Dir, Buner and 
more recently in Waziristan are therefore a significant development. 
For the first time, elements of the insurgency are being squeezed from 
both sides of the border. With more than 3,000 Pakistanis killed over 
the last year, the focus of the military operations has been terrorists 
who attack Pakistan. Over time, however, Pakistan's leaders will need 
to broaden its fight to address al-Qaeda's leadership and the full 
range of other militant groups, not just those who pose the most direct 
threat to Pakistan. And as well as security in the border regions, the 
international community will need to help Pakistan create the political 
and economic conditions that will ensure lasting stability.
    The U.K. has longstanding links with Pakistan--800,000 Britons are 
of Pakistani origin. Pakistan will soon receive our second-largest aid 
program. We have strongly supported the restoration of civilian 
government in Pakistan.
    Britain welcomes developments in U.S. policy toward Pakistan. The 
U.S. has made clear its intent to build a long-term trust-based 
partnership with Pakistan--and the Kerry Lugar Act is a major step 
toward that goal. Last year, we held the first EU-Pakistan summit, 
which I hope will be the start of a much deeper engagement on security, 
trade, development and more. And the Friends of Democratic Pakistan 
group provides us with a wider political forum for aligning 
international support behind Pakistan.
    Perhaps the most significant shift required though is to develop a 
new consensus within the region that Afghanistan's future lies in being 
an independent, sovereign state--a client of none and a friend to all. 
Pakistan, Iran, and others within the region, are affected by the 
crime, drugs, terrorism, and migration that spills over Afghanistan's 
borders. A stable Afghanistan that once again becomes the commercial 
and cultural cross-roads for South West Asia is a shared interest. 
However, the trust deficit within the region means that neighboring 
countries fear Afghanistan will one day return to being a chessboard on 
which the geopolitical struggles of others are played out by proxy. As 
a result, they continue to hedge their bets, maintaining former 
relationships and not taking the steps needed to stabilize the country.
    Encouraging each of the regional stakeholders, Afghanistan's 
neighbors and near-neighbors, to accept that the conflict in 
Afghanistan is a regional problem, and thus a regional responsibility, 
will require much more focus on the regional dimension than has been 
given so far. It will demand a new hard-headed attention to what 
reassurances both Afghanistan and other players in the region need 
about each other's behavior and intentions. It will also call for 
consistency and clarity about the presence, activities, and intentions 
of the international forces in Afghanistan, so that these too are 
properly understood to be a force for stabilization and not a threat. A 
sense of regional ownership must be built through a process of 
systematic and serious regional engagement, in which the regional 
players, instead of confronting each other face to face, or by proxy, 
acquire the habit of working side by side to focus on a problem from 
whose solution all will benefit. Only the countries of the region can 
decide whether they want to build on the multitude of existing regional 
bodies, or create something new and Afghanistan-specific.
                           london conference
    The aim of the London Conference, which will take place on January 
28, is, as Prime Minister Gordon Brown said when he announced it on 
November 28: ``to match the increase in military forces with an 
increased political momentum, to focus the international community on a 
clear set of priorities across the 43-nation coalition and marshal the 
maximum international effort to help the Afghan Government deliver.''
    London is the venue, but the conference is a joint effort between 
the British Government, the Government of Afghanistan and the United 
Nations. I will chair it alongside Foreign Minister Spanta and the 
UNSG's Special Representative Kai Eide.
    Together, we have invited the Foreign Ministers of all ISAF partner 
countries, Afghanistan's immediate neighbors and the key regional 
players, as well as representatives of NATO, the U.N., the EU and other 
international organisations such as the World Bank.
    Discussions will focus on three areas: security, governance, and 
development, and regional relations.
    With respect to security, the Conference will consider how the 
respective roles of the international and Afghan forces should evolve 
over time. Because as the Afghan National Security Forces develop, they 
will need gradually to assume--district by district and province by 
province, as the necessary conditions are met--lead responsibility for 
security. The Conference will also address how to support Afghan-led 
reintegration efforts.
    Although London is not a force generation conference it will be an 
opportunity to encourage allies to increase their commitments in 
critical areas, particularly with respect to the training of the Afghan 
National Army and Afghan National Police. The NATO Training Mission--
Afghanistan still has a shortfall of 1,600 trainers, and despite EU 
promises to increase the size of its Police Mission (EUPOL) to 400 
trainers, the total staffing remains at only 267.
    With respect to governance and development, the London Conference 
aims to lead to concrete steps by the Afghan authorities to tackle 
corruption and improve its financial management. But it is also the 
opportunity for the international community to consider how its 
development assistance is supporting Afghan leadership, and in 
particular to ensure it is effectively aligned behind the Afghan 
Government's Economic Plan.
    In terms of regional relations, by bringing together Afghanistan's 
neighbors and the key regional powers, the London Conference aims to 
promote progress toward more systematic and cooperative engagement by 
and between all of the regional stakeholders, building on the range of 
existing structures. I have been in close contact with my Turkish 
counterpart on this in recent weeks, and am pleased that in the few 
days before London he will hold a meeting with Afghanistan's neighbors 
to develop ideas for improving regional cooperation.
                               conclusion
    Amidst the losses of 2009--keenly felt on both sides of the 
Atlantic--and the drawn-out Afghan Presidential election process, I 
believe that we have begun to address the issues crucial to any future 
success. Under U.S. leadership, the International Security Assistance 
Force has reinvigorated the military strategy and redoubled its 
military commitments.
    But while necessary, military reinforcements alone will not be 
enough to achieve success. In 2010, the international community needs 
to fully align military and civilian resources behind a political 
strategy that engages the Afghan people in defense of their country, 
divides the insurgency and builds regional cooperation. This strategy 
needs to be led by the Afghans, but it requires international support. 
That is the task ahead of us in London next week. I look forward to 
discussing it with you.

    The Chairman. Well, thank you very much, Mr. Secretary. 
That's helpful, important testimony.
    What I wanted to do is ask--Mr. Secretary, we have this 
little thing that happens around here called voting. Right now 
we're on the back end of a vote, which is why Senator Shaheen 
went over. We thought she'd be back here before--here she is, 
terrific.
    Would you wait to begin your round of questioning until we 
get back, and that way we can run without having to interrupt. 
So it works out fine, and we'll get back just as fast as we 
can.
    Thanks. You're up.
    [Pause.]
    Senator Shaheen [presiding]. Thank you very much. I want to 
begin by echoing what you heard from Senators Kerry and Lugar, 
our thanks for your being here today and a recognition of the 
very special relationship that the United States and the United 
Kingdom have. It remains one of the cornerstones of stability 
around the world. So I think it's important for all of us to 
reiterate that. So you can take that back with you.
    I also want to recognize the service of the men and women 
of the British military in Afghanistan. I had the opportunity, 
like many of us here, to visit Afghanistan last May and we went 
down to Helmand province, where the PRT is led by the British, 
and it was very impressive to see what's going on there and to 
hear the commitment of all of the members who are there from 
Britain. So thank you very much for that.
    One of the things that we've been talking about here is how 
to measure what's happening in Afghanistan and how do we 
determine what progress is. I wonder if that's a debate that 
you all are having and what specific measures you think are 
important for us to look at for progress in Afghanistan, and 
specifically with respect to President Karzai, whether there 
are specific measures of progress that you're looking for.
    Mr. Milliband. Thank you very much, Senator, and thank you 
very much for your kind words, and I'm glad that your visit to 
Helmand province went well.
    I think that there are inputs and outputs that help us to 
measure progress. Inputs I think are best measured on the 
Afghan side, but I think, for example, the development of the 
Afghan National Army, which currently is some 96,000 strong, is 
a significant development in that country and one that speaks 
to the need to develop Afghan capacity to defend themselves.
    I think it's also significant to look at the development of 
the police force, which has been a much more vexed and 
difficult project. But I have a lot of confidence in the 
efforts of Minister Atmar, the Interior Minister for the last 
15 or 18 months. He has one of the most difficult jobs in 
international politics. But I think that the development of 
Afghan capacity there is very significant.
    So I think there are a range of inputs on the Afghan side 
that are worth documenting. But obviously the most important 
test is the outputs, what's actually changing in the country. 
And here there are a number of important proxies for the 
progress that we are seeking to achieve. One that will be 
important in the next few years is the transfer of lead 
security responsibility across the country to Afghans. 
President Karzai said in his inauguration speech that he wanted 
half the country to have Afghan security leadership within 3 
years, the whole country within 5 years.
    I think that it's also significant to look at the figures 
on poppy production; 20 provinces are now poppy-free. The U.N. 
reports in last year some 19 percent fall in poppy production, 
last year 22 percent. Governor Mangal gave me a positive report 
when I was in Helmand province last weekend about this year's 
figures.
    The third area, which I think General McChrystal would 
highlight as being of primary importance, concerns the 
protection of the Afghan people. He's made it the centerpiece 
of the military campaign to protect the Afghan people. That I 
think is going to become a very, very important measure in the 
future.
    I think, finally, there are a range of economic and social 
measures that it's worth reminding oneself of. First of all, 
some 4 million refugees have returned to Afghanistan. Some 6 
million children are now in school in Afghanistan. And the 
development of the agricultural economy that Senator Lugar 
referred to I think is also going to be important.
    Let me just make one point about that. We do not have 
military forces in Afghanistan in order to allow children to go 
to school. We have military forces in Afghanistan because of 
the security threat to both of our countries. But it's quite a 
good indication of the change that's going on that those 
children, especially girls, are able to go to school, because 
evidently they weren't in the 1990s.
    Senator Shaheen. I certainly agree with that, and also 
agree with your assessment of Minister Atmar. We had the 
opportunity to meet with him and he was very impressive, and we 
heard that reinforced by some of the trainers that we talked to 
who are working on developing Afghanistan law enforcement 
capacity.
    One of the things that we've been debating here is the 
possibility of drawing moderate elements of the Taliban away 
from the more ideological leaders and reintegrating them into 
Afghan society. Is that something that the U.K. also believes 
is possible, and do you support President Karzai's latest 
reconciliation plan? Do you think it's feasible?
    Mr. Milliband. I think this is a very important aspect of 
the campaign. I think you were voting when I talked about the 
second aspect of the political strategy, which is to divide the 
insurgency and to create space in the Afghan political system, 
notably at the local level, for those elements of conservative 
Pashtun communities to find a political voice and to drain 
their support from the insurgency.
    That obviously requires the division between those who are, 
as you've put it, ideologically motivated, especially those who 
are linked to al-Qaeda, and those who are pursuing local 
grievances that would better fit within their own communities. 
This drive for so-called reintegration seems to me to be one of 
the most important aspects of the campaign in the future. It's 
striking that General McChrystal should put this political 
outreach at the center of his military strategy, not as an 
alternative to it but as a complement to it.
    From the United Kingdom point of view, we very strongly 
support the emphasis that's being put on this in the new 
strategy set out by President Obama, but also, as you referred 
to, President Karzai has talked about this. He's talked about 
summoning a loya jirga, a traditional Afghan form of 
consultation, for a rather wider project of what you rightly 
refer to as reconciliation. That involves difficult issues. It 
involves engaging with mid and high-level commanders, which 
poses rather different challenges than the attempt to 
reintegrate farmers and peasants into their communities at 
local level.
    But we think that this drive for reintegration and 
reconciliation is going to be an important part of the future. 
The redline is obviously the links with al-Qaeda that provided 
the danger for the rest of us from Afghanistan's development in 
the 1990s. But I believe that these political processes are 
absolutely essential to Afghanistan's future and to our 
campaign there.
    Senator Shaheen. Do you have any thoughts about what's a 
realistic timeframe to think about how we begin those 
reconciliation efforts? I don't know that Iraq is a fair 
comparison, but it's the one that we have here. Do we think 
this is going to be possible within the 18-month timeline that 
we're talking about before we reassess beginning to drawdown 
troops?
    Mr. Milliband. Well, I think it's important to say that 
reintegration has started. In my written testimony I've given a 
couple of examples from different parts of the country of where 
reintegration efforts have already borne fruit, and I think 
it's important to recognize them. As you indicate, the parallel 
with Iraq is tempting, but it can also be misleading. Iraq is 
obviously a very different kind of country from Afghanistan, 
not least in, first, its wealth. Afghanistan, after all, is the 
fourth or fifth poorest country in the world. It's very 
different in its state structure. Iraq has had a history of a 
centralized state, brutal rule at that, whereas Afghanistan has 
not.
    But I think that some of the lessons that have been learned 
in Iraq can be used in thinking through the Afghan approach. I 
think that for reintegration there's no time like now. The 
increasing military pressure that is a feature of life in the 
south and east of Afghanistan is an important spur to 
reintegration efforts.
    In respect to reconciliation, that's a much more difficult 
thing to talk about in public because the messages can be 
misunderstood. I think in that context, though, President 
Karzai has said he wants to summon this loya jirga to kick off 
the process, and I think that that is something that we should 
support.
    Could I just take the opportunity to pick up your reference 
to the July 2011 timeline that has been set by President Obama, 
because it's obviously important. The first thing to say is 
that some of the misunderstandings that were associated with 
reporting of this timeline are slowly being corrected, both in 
Afghanistan and amongst the neighbors. After all, President 
Obama went out of his way to highlight the fact that this was 
the moment when U.S. forces would begin a drawdown. I think he 
subsequently or his staffers subsequently referred to it as a 
ramp and not a cliff edge, and I think that's an important part 
of this understanding.
    But second, I can report from the region that the sense of 
urgency that is felt in this country is increasingly 
concentrating minds, not just in Afghanistan, but amongst some 
of its neighbors. People are beginning to realize that July 
2011 does not mean the end of American or coalition engagement, 
but it does mean that the commitment of this country and others 
is to build up Afghan capacity to govern themselves. It's made 
concrete the commitments that many of us have made over the 
last few years that our project in Afghanistan is not one of 
colonization, it is one of defense and empowerment of the 
Afghan people.
    I hope that as this year proceeds, the sense of urgency 
that has been injected will be properly understood alongside 
the long-term development commitment that is clearly part of 
the international engagement in Afghanistan.
    Senator Shaheen. Given all of our support for recognition 
of the importance of the civilian effort in Afghanistan, what 
do you think the prospects are for additional EU support for 
that civilian effort? And is this something that you expect to 
see really delineated at the conference next week in London?
    Mr. Milliband. Well, I think that a number of countries 
will use the conference next week to announce increased 
civilian and military contributions. Obviously, since President 
Obama's speech on the 1st of December a number of countries 
have committed extra troops. I think that totals about 7,500, 
7,800 in the 6 or 7 weeks since December 1. I think on the 
civilian side you're right to point up the need for the EU, 
both as individual countries and as a collective, to step up 
its role. That's part of burden-sharing. I think that's in part 
with respect to the policing mission, one where the EU has got 
some specific responsibilities that it needs to fulfill, but 
also more generally on the development side. The EU is a very 
large development partner and I think that one of the things 
that the European Union will have to do is make sure that both 
in Afghanistan and Pakistan its development effort matches the 
scale of the need.
    Senator Shaheen. Thank you.
    Senator Lugar.
    Senator Lugar. Thank you very much, Madam Chairman.
    Mr. Secretary, in the course of your statement you 
mentioned a sentiment expressed in a recent public opinion 
poll. Specifically, I believe you cited the ABC-BBC-ARD poll 
that indicated a turnaround in popular sentiment over the last 
12 months in Afghanistan. Certainly such good news is welcome 
because the trends in those same polls from 2005 all the way to 
this point were headed in the other direction.
    I am just curious as to why, in the last 6 months, there 
has been this change in sentiment. I ask this because at the 
same time we have been debating these issues in this committee, 
the American people have frequently said there seems to be very 
little appreciation in Afghanistan for what is occurring. As a 
matter of fact, data on the polling of the question: ``Do you 
like Americans or not?'' shows that sentiment has been 
decreasing pretty consistently.
    Suddenly one poll seems to indicate that we are becoming 
more liked. Would you be able to provide us with some 
background as to why this poll may have turned out the way it 
did? Is this just a blip of optimism or is there something more 
fundamental going on there that we may not have observed 
before?
    Mr. Milliband. Well, Senator, to be absolutely honest, I'm 
quite skeptical of some of the figures, notably the one which I 
think you're referring to, which suggests that, instead of 40 
percent of Afghans being optimistic about the next year, 70 
percent are. That is a--one's always got to be concerned about 
one opinion poll.
    I would say two things, though. First of all, the poll does 
have consistent findings with previous polls in this series in 
respect of the Afghan people's revulsion at the Taliban and 
their support for foreign troops. Quite surprisingly, 68 
percent in respect to the United States, 62 percent in respect 
to the U.K., of Afghans say that they want those troops to 
stay, and that is something which has been borne out in 
successive polls in this BBC series.
    Senator Lugar. This is really astonishing in comparison to 
Pakistan, where public opinion of the United States still seems 
to be on a very steep downward slope.
    Mr. Milliband. Well, I think that's a very important point, 
and maybe we can come to the issue of the popular mood in 
Pakistan, because I think it is different.
    However, I do think that one factor which could explain why 
levels of optimism have risen relates to the very significant 
efforts that General McChrystal has made since last spring to 
cut the number of civilian casualties. If you think back a 
year, the level of civilian casualties in Afghanistan--
certainly if you think back to the year 2008, the level of 
civilian casualties, the almost weekly reporting of civilian 
casualties, was a permanent drain on the sense of confidence of 
the Afghan people in the mission that was being pursued.
    I do think that the commitment to reduce civilian 
casualties has been a significant factor in helping to change 
some of the climate in Afghanistan. I also think it's worth 
saying that the fact that the election is now behind the people 
of Afghanistan has helped create a sense that there is someone 
in charge. I think that's part of the factor there.
    Senator Lugar. How do you explain the sentiment within the 
Afghan Legislature regarding the decision on the part of some 
members to block several of President Karzai's Cabinet 
appointments? Efforts to this end are continuing into the 
second round. While apparently some Cabinet officials were 
acceptable to legislators, a good number of them were not. 
President Karzai appears to be accepting these rejections and 
is trying to appoint some more people.
    But does this trend have something to do with the figure 
you cited--that a fairly large percentage of Afghans reported 
they had bribed someone during the course of the last year? You 
pointed out this is totally unacceptable, which it is, but some 
would say, ``this is life in Afghanistan,'' and ``get real; 
this is what the predicament is.''
    What is this sentiment within the Afghan Legislature? Is a 
change going on there? Is there a check and balance being 
established that is likely to lead to better governance?
    Mr. Milliband. Well, I think that the first thing to say is 
that the Afghan Parliament is flexing its muscles. That's 
probably not something that's completely alien to this body. 
That's been known to happen in many of our systems.
    Senator Lugar. But in Afghanistan, wouldn't this be 
unusual? The executive has been pretty powerful prior to this 
time.
    Mr. Milliband. That's certainly true. But I think it partly 
reflects the fact that they're in a pre-election year in 
Afghanistan. That can often be a spur to independence of 
thought on the part of legislators. Second, the fact that some 
of the nominees have been given a very thorough going over by 
the parliamentarians reflects the Afghan constitution and the 
exercise of rights under it. That's what the chairman referred 
to.
    I think third--and one has to tread delicately here--
Afghanistan is a significantly tribal society, and what you are 
seeing is somewhat of the fissures in that society being 
reflected in votes in Parliament. And some of the nominees--
because you will know that, notably, the Hezaras and Uzbeks 
have not been ratified when they've been put forward. That 
reflects some tensions within the Hezara and Uzbek communities. 
So I think you're seeing some of the tribal divisions being 
reflected in the votes that are taking place in Parliament.
    I'm pleased to say that in some of the absolutely key 
ministries--Finance, where I met the Finance Minister on 
Saturday; Interior, ditto; Defense, ditto; Foreign Affairs, 
ditto; Agriculture--you're seeing people go through and you're 
seeing people of merit being appointed. One of the absolutely 
key things for this second term of President Karzai is that his 
cabinet is empowered to govern. A country as diverse and as 
complicated as Afghanistan cannot be run by simple fiat from 
the Presidential palace. It needs functioning ministries, and I 
think that one of the most important indicators of progress is 
going to be the ability of those men and women appointed to 
Cabinet posts to go off and do their work.
    Senator Lugar. In recent debates we've had on how 
responsibility might be turned over to the Afghans, there have 
othen been estimates made of how many persons will need to be 
in the Afghan Army, and of how many of these must be well-
trained persons who have some literacy and are able to assume 
leadership roles. The total numbers mount up; some say 150,000 
while others say at least 200,000. Some folks have even 
formulated rather extravagant estimates and say 300,000 people 
are required to maintain order as troops from the United 
Kingdom and the United States are withdrawn.
    The dilemma then, pointed out by President Karzai, is that 
these troops cost money and the total budget of Afghanistan 
would not be able to support perhaps even 100,000 troops, quite 
apart from these other rather enlarged numbers. This implies 
that someone--the United Kingdom, the United States, or 
others--must be prepared to really support the budget of 
Afghanistan for some time, even once fewer of our troops are in 
the country.
    Has that debate occurred in Parliament at all? If so, what 
sort of readings do you get in terms of sustained financial 
support, leaving aside the military support on the ground?
    Mr. Milliband. I think that's a really important question, 
Senator. I'm grateful to you for raising it. I say in my 
mission--in my testimony here that the mission in Afghanistan 
is to ensure that the Government of Afghanistan is able to 
secure its territory against a weakened insurgency. Hence the 
importance of the reintegration efforts that Senator Shaheen 
asked me about while you were away.
    As you know, the current plans are for 134,000-strong 
Afghan National Army by November of this year, as a staging 
post toward further growth. You're absolutely right that the 
Afghan state is not going to be able to fund that on its own. 
So those who talk about continuing commitment to Afghanistan 
that is nonmilitary are right to do so.
    Equally, the scale of the formal institutions of security 
in Afghanistan is different than in a country like ours, 
because, as I point out in my written testimony, the state is 
not going to have a monopoly of force in a country like 
Afghanistan. The equilibrium that's going to exist in parts of 
the south and the east is not only going to be between a 
weakened insurgency and a formal security forces. It's also 
going to be within communities, with informal mechanisms for 
justice as well as for security.
    I think that the truthful answer is that those things need 
to be supported, not neglected. We cannot substitute the formal 
institutions of security of the state in short order. But I do 
think that the buildup that's being anticipated with the 
partnering that General McChrystal has proposed suggests that 
we could see a stronger Afghan National Army if we're willing 
to pay for it. And paying for it is going to be the price of 
being able to withdraw our own combat troops.
    Senator Lugar. Thank you very much.
    The Chairman [presiding]. Thank you very much, Senator 
Lugar.
    Mr. Secretary, as I mentioned earlier--and you referred to 
it--the British people are sacrificing significantly here, and 
obviously American families likewise have sacrificed greatly 
and will continue to. We don't often get a chance to hear this 
firsthand. I think maybe you can help here today to articulate 
to Americans why you folks are making these sacrifices.
    What is it that you see in Great Britain that brings your 
government to make this kind of commitment? And help define, 
perhaps in different words than we might or just from your 
perspective, why America needs to care about this, why all of 
us, 43 nations, are committed here? What do you see as at 
stake?
    Mr. Milliband. Thank you, Mr. Chairman. I think it's an 
important question. It's one I'm asked often when I talk to----
    The Chairman. Could you move the mike?
    Mr. Milliband. Right. Thank you, Mr. Chairman. It's a 
question I'm asked often in Britain, where people ask why are 
we there and is it worth it. The reason that we are there is 
that the primary national security challenge that the British 
people face is no longer that of invading armies from 
neighboring countries. The primary security challenge that we 
face is that of international terrorism.
    We know that in terms of our territorial integrity as a 
country Britain has rarely been safer. Probably you could say 
that for a thousand years we haven't been safer. But the 
British people going about their business, whether at home or 
abroad, are less safe, and they're less safe because they, 
whatever their race or their religion, can become victims of 
international terrorism.
    We also know, second, that 70 percent of the terrorist 
plots that are aimed at the United Kingdom can trace their 
links back to the badlands of the Afghan-Pakistan border. So we 
have a very clear national security interest there.
    Third, we know from the 1990s that Afghanistan is the 
incubator of choice for global jihad for al-Qaeda. We know that 
the Taliban government of the 1990s provided, sponsored, 
provided a supportive environment, it sponsored, al-Qaeda's 
development within its own borders.
    So for those reasons I feel confident in saying to the 
British people that we would not risk the lives and welfare of 
our Armed Forces, but also our diplomats and our aid workers, 
if our national security was not at stake. But we believe it's 
very important that the insurgency that threatens the country 
of Afghanistan is not allowed again to provide an umbrella for 
al-Qaeda.
    We know too that al-Qaeda is currently--the al-Qaeda senior 
leadership is based on the Pakistan side of the border. That 
does not in my view invalidate the campaign in Afghanistan. 
What it does is emphasize the interdependence between stability 
in Afghanistan and stability in Pakistan.
    For the first time in a very long time, there is 
complementary military pressure on both sides of the Durand 
Line, the 1,600-mile border that exists between Afghanistan and 
Pakistan. The losses that are being suffered by the Pakistani 
Army and people on the Pakistani side of the border are 
testimony to the fact that the insurgency understands the 
significance of that line and that it understands the 
significance of the campaign on both sides of the border.
    So we have a difficult and complicated argument to put to 
our people, but it's one that speaks to the nature of national 
insecurity in the modern world, and that's the basis upon which 
we try to prosecute our case.
    The Chairman. It's a very articulate and important answer 
and I appreciate it. I'd like to follow up with a question 
about the nature of this threat of the umbrella, which 
fundamentally comes from the Taliban. In today's New York Times 
there is an important article, the headline of which is 
``Taliban Using Lighter Touch to Win Allies.'' The gist of the 
story it is: ``Now, as the Taliban deepen their presence in 
more of Afghanistan, they are in greater need of popular 
support and are recasting themselves increasingly as a local 
liberation movement independent of al-Qaeda, capitalizing on 
the mounting frustration of Afghans with their own government 
and the presence of foreign troops. The effect has been to make 
them a more potent insurgency, some NATO officials say.''
    A number of us have expressed concern about this potential 
evolution of the Taliban, what it might mean in the longer 
term. I wonder if you would address your sense of that and 
where that concern might fit into the London conference and the 
strategy that needs to come out of it.
    Mr. Milliband. I think that the asymmetric tactics of the 
insurgency speak first to their use of IEDs, improvised 
explosive devices, that are so deadly. It is one import from 
Iraq, which Senator Shaheen was asking about while you were 
voting.
    Second, however, I think we should be clear that for those 
insurgents who want to pursue local grievances within their 
political system, that's precisely what the political system is 
for. And it's important that the political system provides a 
space for conservative Pashtuns to argue for their kind of 
social and economic development within their local communities.
    So it seems to me that this speaks directly to the issue of 
reintegration which Senator Shaheen was asking me about. I 
think General Petraeus has said, perhaps to this committee, 
that 70 to 80 percent of the insurgency have no business even 
aligning themselves with a movement that is linked to al-Qaeda 
and that it should be a primary objective of our civilian-
military strategy to bring them back into their local 
communities.
    You'll know from your own detailed work in Afghanistan that 
concerns about corruption on the part of the Afghan people are 
real and in many cases well founded. That provides fertile 
ground for people to argue that they need alternatives to their 
own government. That needn't mean that they adhere themselves 
to an alternative that would provide cover for al-Qaeda. It 
seems to me that we have to be clear enough about the political 
settlement that we are seeking, especially in the south and 
east of Afghanistan, that it has space to incorporate concerns 
about corruption or concerns about social policy.
    The Chairman. So your sense is that if they became a sort 
of quasi, ``legitimate'' party or a legitimate force for change 
and participate in the process, that that can be translated 
into the reintegration process. What if it's just a cover for 
their increased spread of violence and support?
    Mr. Milliband. Well, I think that it will then be rejected 
by the Afghan people. I think that it's important to say first, 
I think ``party'' probably isn't right. It's not really going 
to be a party system in Afghanistan, certainly not a party 
system of the kind that we understand. But there will be blocs 
and movements, and they should represent all shades of 
political opinion that's willing to live within the Afghan 
Constitution.
    Second, you know from your visits to Pakistan that one of 
the major changes in the last year has been the fact that the 
Pakistani people are now backing their own government in taking 
on the so-called Pakistan Taliban. Why is that? Not just 
because of our urgings. We don't believe that. The video that 
was published I think last June of Taliban ``justice,'' so-
called, being administered to a 17-year-old girl created a wave 
of revulsion in Pakistan. And you can be sure that the vast, 
vast majority of Afghans remember what Taliban rule meant, and 
the best inoculation against that is those memories.
    So of course the Afghan people will be wary of Taliban 
trying to present themselves as a moderate, reformed political 
party or political movement. Their good sense is our best 
defense as well.
    The Chairman. I might mention that the Georgian Ambassador, 
Batu Kutalaya, is here and we're very happy to welcome you 
here. The Georgians currently have hundreds of troops being 
trained by the Marines to take part with ISAF, and we're very 
appreciative for that support and for your participation.
    Senator Risch. You'll yield?
    Senator Casey.
    Senator Casey. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for your testimony and your 
presence here. We had the chance in August to visit Afghanistan 
for 2 days and had a chance to interact with and learn from a 
number of your troops, especially in Helmand province.
    Let me first lay down or set forth a predicate for the 
question I'm going to ask. It relates to President Karzai. I've 
had the opportunity to meet him and to talk to him on two 
occasions, once in 2008 and once in August on that trip I just 
referred to. Two meetings does not a full understanding make or 
give you the opportunity to fully assess someone's commitment. 
But I have to say in the two meetings I had, and especially the 
one in August, I came away very concerned, for a number of 
reasons.
    One of the questions that I posed to him in that meeting--
and you know what they're like when Members of Congress meet. 
You might have a half an hour or an hour. But one question I 
asked him was, I said to him that the patience of the American 
people is not unlimited for our engagement and we need to see 
progress. And I said to him: Pretend for a moment that you're 
one of my constituents; tell me what you've done in the last 
year or so on the basic concerns that we have apart from the 
basic security question. Tell us what you've done on building a 
stronger system of justice, rooting out corruption and 
prosecuting corruption, delivering basic services to your 
people?
    Now, when we were meeting it was about 48 hours after his 
reelection campaign had concluded. I would have thought--and I 
look at this as an American politician--that when you're 
running for reelection you're looking in the rear view mirror 
and you're also looking ahead. You're telling people this is 
what I've done and this is what I hope to do if you reelect me. 
I thought he would have had a reelection message or speech, 
literally, that would be able to recite chapter and verse on 
what he had done. His answer was--to say it was inadequate is 
an understatement.
    So that's the predicate. I want you to know the skepticism 
that I bring to this question. But do you believe there is a 
way--I'm assuming you'd say this should happen. But do you 
believe there is a way to impose more accountability in what is 
a very corrupt system, meaning--is there a way and will 
President Karzai lead the effort to provide more disclosure of, 
say, income and assets, the seizing of assets when someone is 
engaged, who's a public official engaged in corruption, removal 
from office of those who are engaged in corruption?
    I realize that that would be a sea change in that political 
culture. But tell us what you believe to be not only his 
commitment, but what is the evidence that that commitment has 
integrity, just on the political corruption question?
    Mr. Milliband. Well, it's a profoundly important question, 
Senator. It's not for me to speak for President Karzai, 
obviously. He speaks for himself. Let me take the two parts of 
the question.
    The first part, can we impose accountability? Well, in some 
aspects of our work we can. We can say very clearly that we 
will not spend money through those parts of the Afghan 
Government where we do not have confidence that the money will 
reach its intended beneficiaries. We can be very clear about 
that. We audit the way our money is spent when the Afghans 
spend it, and we're a country which spends I think the largest 
proportion of our money through the Afghan system. And we 
should have very, very tough accountability rules about what 
the money's for and who it reaches. And if there are ministries 
who are not spending the money on the things that they're meant 
to be spending it on, we can do something about that.
    The second example: Corruption isn't just national. It can 
be local. If you want to travel from Lashka Gar to Kandahar and 
you want to travel along the route between them, the likelihood 
is that you will be stopped many times on that route, 
especially if you are trying to take goods to market, or even 
if you're not. The security between population centers is a 
very important way of establishing order in a society. At the 
moment that route between Kandahar and Lashka Gar is not run 
the way it should be.
    So I think, second, we can make a difference with our 
international forces and we can ensure that the Afghans are 
supporting it.
    The second aspect, though, concerns the role of the Afghan 
people, because President Karzai doesn't only have a contract 
with us; he has a contract with his own people. This is where 
the role of Parliament, the role of the opposition--Dr. Abila, 
who I met in Kabul on Saturday, as a continuing role as a 
defeated Presidential candidate--and where the other ministers 
of the government are important.
    Here is an area I think where words matter. To take the 
corruption example, President Karzai said in his inauguration 
speech that he wanted to end the culture of impunity that has 
blighted Afghanistan. Those are very strong words, for which he 
will now be held to account. The fact that since then he has 
set up an anticorruption commission and oversight board are 
good starts. But they then need to be followed through.
    I think, as your government said on November 18 after 
President Karzai's inauguration speech and as we said, words 
have to be turned into deeds. Some of that work can be done by 
us. Others has to be done by Afghans because, as the chairman 
said in his introductory comments, the future of Afghanistan 
needs to be above all driven by the Afghans themselves.
    Senator Casey. I have a related question, but I may have to 
ask it in another round or in writing, a related question on 
just governance and security, or I should say internal 
security, with regard to the police. I know in your testimony 
you speak on page 3 of President Karzai's commitment to 
increase--and I'm summarizing--army and police. You're citing 
the police as going from 96,000 to 109,000 by the end of 2010.
    We can answer this--let me just lay the question down. One 
is a real doubt about whether--a doubt that I have and I think 
others have expressed, about whether the 96,000 is a real 
number; and two about the doubt about the ability to grow that. 
But we'll try to do it in another round. I know we're out of 
time.
    Thank you very much.
    The Chairman. Let me just say, Senator Casey, that because 
of the time--we have Ambassador Holbrooke afterward, and 
because of the Minister's schedule, we're not going to have a 
second round. I apologize for that, but I think it's fine if 
the Secretary would like to just answer the question if he 
wants to.
    Mr. Milliband. I'd be very happy to write you afterward. I 
think that your degree of concern about the police is very well 
merited. I said to Senator Shaheen earlier that I thought that 
Minister Atmar had one of the most difficult jobs in politics 
as the Interior Minister of Afghanistan.
    I think that the fact that NATO has moved into police 
training in a serious way is a very significant and positive 
development. I think the European Union needs to do more for 
officer training on the police side, especially those European 
nations with a gendarmerie tradition, for obvious reasons. But 
I think that, on the issue of policing, that the balance 
between formal and informal institutions of security reaches 
its heart.
    One obvious question for those who are being reintegrated 
into Afghan society is how they relate to the security forces, 
and the governance of the security forces goes to the heart of 
that question.
    Senator Casey. Thank you.
    The Chairman. Thank you very much.
    Senator Dodd.
    Senator Dodd. Mr. Chairman, first of all I apologize to our 
witness. I've been on the floor of the Senate involved in 
debate there.
    I know you were asked about where Great Britain is in all 
of this. Let me expand the question briefly, just one question 
to you, because I know Richard Holbrooke is here with us. That 
is, in Europe itself, obviously the commitment of Europe at 
large to this effort is very, very important. I think most of 
us feel a level of confidence that our closest ally in the 
world and friend Great Britain is committed to this. But beyond 
the confines of Great Britain, to what extent is the rest of 
Europe committed to this, and how politically viable is that 
commitment, given some of the expressions of opposition that 
have emerged, not only there but here as well?
    Mr. Milliband. Well, I think it's a very important 
question, Senator. I think that the first thing to say is that 
I think all European nations recognize the importance of this 
and all European nations are doing something, most on the 
military side, but also on the civilian side.
    Do we together need to do more to match the moment? The 
answer is yes, because the fate of Afghanistan is going to be 
decided in the forthcoming period and the time is now for 
commitments to be made.
    I think it's important to say that some European countries, 
especially the smaller ones, have made outstanding 
contributions. Next to us in the south of Afghanistan, the 
Danes and the Estonians have shown remarkable commitment and 
remarkable bravery, and that needs to be acknowledged.
    But it's also the case that the political temperature in 
Europe is tough, as it is here. We believe that this is a 
mission that is essential. It's a necessary mission and it's 
one that needs to be explained to people. As I was saying just 
before you came in, the countries of Europe, especially the 
countries of the European Union, have never been safer in 
respect to their territorial integrity, but their citizens are 
less safe because of international terrorism. And we have to 
explain to people why the armies that we have need to be 
deployed for different purposes. That's a message that needs to 
be heard.
    I believe this, though. The essence of calling people to 
rally behind the mission is a coherent and clear plan. I think 
the coherence and clarity of the plan that now exists, both the 
priorities that have been set out by the Afghans and, 
critically, the security strategy that's been set out by 
President Obama and General McChrystal, gives no one excuses to 
say that they don't know what the plan is. There are no excuses 
to say that it's not a plan that genuinely speaks to the needs 
of Afghanistan. And there's no possibility of saying it isn't 
integrated with a civilian strategy.
    I think that's why I said in my opening statement that the 
greatest deliverable from the London conference will be 
clarity, cohesion, and confidence that the politicians take 
back to their own people?
    Senator Dodd. Are we doing enough to advance this? What 
suggestions might you have on how we could better work 
together, putting aside the differences that may exist both 
here and there in Europe regarding the policy itself? It seems 
very important to me, to the extent you want to sustain support 
that there is clarity--and I think clarity is critically 
important. To what extent are we able to work better at this 
than we presently are?
    Mr. Milliband. Well, I think that it's important, first of 
all, to say that American leadership is not something that 
Europeans fear. American leadership is something that is 
recognized as essential, because this is a more complicated 
world than during the cold war, but this is a world where 
America is still the world's superpower. It's still the country 
that many look to, and it's the country with the resources to 
be able to take on the great challenges.
    But I think that there is an ability to combine our 
resources better, and the themes of mutual respect and mutual 
responsibility that the administration and in some ways you 
yourself, sir, in the way you've asked your question, those 
themes of mutual respect and mutual responsibility are the only 
basis, the right basis, on which to combine our efforts.
    I also think that the Afghans need to speak more for 
themselves. One feature of the London conference is that there 
will be an opening speech from President Karzai. But when it 
comes to the discussion of sanction, Defense Minister Wardak 
and Interior Minister Atmar will also speak. When it comes to 
discussion of governance, Economics Minister Zakowa and head of 
the Ideology Popol will speak. When it comes to the regional 
role, Foreign Minister Rasul will speak.
    Those Afghan voices and the voices of Afghan civil society, 
men and women, who will also be heard at that conference also 
need to be heard. We have said all along that we are not on a 
mission of colonization and so Afghan voices are very important 
support for that.
    Senator Dodd. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Senator Kaufman.
    Senator Kaufman. Thank you, Mr. Chairman, for holding this 
hearing. I think civilian strategy here is key with our new 
COIN strategy, key in how we deal with it.
    And thank you, Mr. Secretary, for coming, and thank you for 
your government convening this London conference. It's clearly 
a positive thing.
    There's been a lot of discussion here about the depth of 
U.S.-U.K. relations. I have my three youngest grandchildren in 
Hammersmith and they sound a lot more like you than they do 
like me. So the depth of my commitment is total.
    Mr. Milliband. It's the mission of colonization that we're 
on.
    Senator Kaufman. Kind of reverse colonization. [Laughter.]
    The other thing I want to say, because I've been to Helmand 
province twice, the intelligence, the professionalism, the 
courage of the British troops there and the British civilians 
is clearly incredibly impressive. I mean, talking to your folks 
about what's going on over there and what we should be doing 
and how we should be doing it, I feel very, very strongly about 
the professionalism, intelligence, and courage of our troops, 
but you are a great ally to have in this difficult venture.
    To follow a little bit up on Senator Casey's comment about 
the police, you know, you don't have to be in Afghanistan for 
45 minutes to not realize that the Afghan National Police force 
is questionable. What went wrong? I mean, we had--obviously, we 
did a lot of things wrong there. We left early. But we have had 
NATO involved in training the police for a long time.
    First off, what do you think went wrong? And mainly, more 
important, looking forward, what leads us to believe that this 
100,000-some troops, police, we have will actually be a force 
for positive, as to their present status, which is one of the 
great forces for negative in the country?
    Mr. Milliband. Well, Senator, thank you very much for the 
words about the civilian and military efforts of our people in 
the south, which I think will mean a lot to people in the U.K. 
So thank you for saying that.
    I think what went wrong--the first answer to that question 
doesn't lie at our door. What went wrong was an Afghan project 
for the police that was not carried forward in the right way, 
and it wasn't carried forward in the right way at ministerial 
level and it wasn't carried forward in the right way down the 
line.
    I think it's also right to say that the training mission 
has been underresourced for the police. It's also been poorly 
conceptualized, because the role of the police in Afghanistan 
is fundamentally different from the role of the police in our 
country or in your country or in Europe.
    I think that the importance of the local police engagement 
is something that is right, because this is a tribal society 
and locality is very important. So that the idea of the Afghan 
National Police is quite challenging in that society.
    Second, the massive educational problems of the Afghan 
population are mirrored in the police force. This is a society 
without the sort of schooling system that you might take for 
granted. So those being recruited into the police, before you 
can teach them how to be policemen and women they have more 
fundamental challenges.
    Third, it's no secret that drugs are a huge problem within 
the police force, especially in the south, and that's something 
that's not going to be cured within the police force on its 
own.
    I think it's important to be very, very sober about how 
long it will take to turn the police around. The confidence of 
the Afghan people in their army is much greater than the 
confidence of the Afghan people in their police force. However, 
I do think that the way in which over the last 18 months in 
which NATO has taken seriously the police training mission has 
given it a whole new dimension, and that is I think one of the 
few positive aspects that I would point to.
    The other positive aspect is that it is being properly led 
now from the top of the Afghan Interior Ministry. That simply 
didn't happen until 15 or 18 months ago. There is now a serious 
plan for the Afghan police. It's one that I have confidence in 
Minister Atmar as the leader of it. He is gathering around him 
some very brave people who are trying to prosecute their police 
reform strategy, and it's something I think we should be proud 
to back.
    Senator Kaufman. I agree with something you said earlier 
when I was not here about how the--which I thought was one of 
the geniuses of the Obama proposal, is the setting of a 
deadline of July 2011 for us to leave, for the very reason that 
I think you said, which is it concentrates the mind. There's 
nothing like the prospect of a hanging to concentrate the mind, 
and I think for the Government in Afghanistan that will do it.
    How do you feel about--do you get a feeling--I know what 
the President said, the good things the President said since 
then. He's still being critical of NATO forces when it suits 
him. How do you feel that's going? Do you think the deadline--
do you still feel the deadline for July 2011 is concentrating 
their mind and having them move forward?
    Mr. Milliband. I was in the south of Afghanistan and in 
Kabul last weekend and in Pakistan the weekend before. It's 
important to say, to maybe repeat because I think a lot of you 
were voting--I think there was a lot of misunderstanding about 
the original reference to July 2011 when the President first 
made it in his speech. It's not a withdrawal date; it is a 
change in the balance between the American forces or the 
international forces and the Afghan forces.
    Second, it's true that it has made real the commitment of 
the United States and of the wider international community to 
empower Afghans to run their own society. But that is a good 
thing, not a bad thing.
    Senator Kaufman. Right.
    Mr. Milliband. After all, even before the President's 
speech we were all saying this is not an endless war where 
we're going to be endlessly committed. So I think he has struck 
a balance between being clear about our commitment to empower 
Afghans, while also being responsible in saying that July 2011 
is not the day when American responsibility ends; it's the day 
when the beginning of troop withdrawal can start. That's a very 
important difference. I think, as I said earlier, it's a ramp, 
not a cliff edge, and that's an important distinction.
    However, I think it has concentrated minds in a way that I 
think I underestimated when I first heard about this 
commitment. And it's concentrated minds in Afghanistan and it's 
also concentrated minds in the wider international community. 
It's given credence and credibility to the plan that is being 
developed by General McChrystal. It's also concentrated minds 
in the region.
    While the first response wasn't one that spoke to regional 
cooperation, I think over the last 3 or 4 weeks you've seen the 
stirrings of a different attitude. On Tuesday I will be in 
Turkey, where the Turkish Foreign Minister has summoned a 
meeting of all the neighbors of Afghanistan and the regional 
powers. And now the essence of American commitment, both its 
scale, but also the determination to build up a sustainable 
capacity within the Afghan state, is something that I think is 
having a beneficial effect.
    Senator Kaufman. I want to thank you very much and I want 
to wish you the best of luck in the London conference.
    Mr. Milliband. Thank you, Senator.
    Senator Kaufman. And thank you, Mr. Chairman.
    The Chairman. Thanks so much, Senator Kaufman. Thank you.
    Senator Corker.
    Senator Kaufman. Thank you, Mr. Chairman. I'll be very 
brief.
    Mr. Secretary, I just came really out of respect for you. I 
know we've worked on numbers of issues in the past together. 
We've gone through your testimony and we thank you for what's 
taking place next week in London. I just came to show support 
for that--I've got a conflict ongoing in another room--and also 
for the work that Richard Holbrooke is doing. I thank you both 
for that and certainly look forward to a very good outcome in 
London in the next couple weeks.
    Thank you very much, sir.
    Mr. Milliband. Thank you, Senator.
    The Chairman. Thanks a lot, Senator Corker. And we 
appreciate your coming by to share a moment here.
    Mr. Secretary, we could easily go for another round and 
ask, obviously, a lot more questions. But you've been very 
generous with your time. We do also have an opportunity to hear 
from Ambassador Holbrooke, obviously, and I know members of the 
committee want to do that. So we're going to end at this round.
    Normally with our witnesses we leave the record open. But I 
think it's a bad precedent with respect to guests like 
yourself, representing other countries. We are not going to 
leave the record open with respect to your testimony. I think 
people need to be here to ask those questions and we don't want 
to burden you with additional efforts to answer our questions.
    So we're grateful to you, very, very grateful to you, for 
coming here today. Again let me just say to you quickly, we are 
working on the U.K.-U.S. defense treaty. I know it is of great 
concern to you and your country. Senator Lugar and I have held 
a recent hearing. We have information that was requested at 
that hearing that we're waiting on from the State Department 
and Justice Department. We expect it, I think next Monday, at 
which time Senator Lugar and I will converse and work through 
what modality might be the most effective to move forward.
    We are determined to move forward. We understand your 
interest in it, our interest in it, and we want to try to get 
this done.
    Our hope also is to have the START Treaty completed at some 
point in the near term so we can also proceed forward on that. 
So we have a fairly mutually important agenda ahead of us.
    Now, I was going to ask you as a final question whether you 
prefer questions in Parliament to questions in the Foreign 
Relations Committee, but I'm not going to put you on the spot 
and expect an answer to that.
    Again, we really do thank you. Thanks for the great work 
you're doing. Your partnership is essential to our success in 
Afghanistan and we believe that success in Afghanistan is 
critical to Pakistan and the region, and we are going to 
continue to stay focused on this issue.
    What I would like to do is as I excuse you ask Ambassador 
Holbrooke just to come right up and fill in.
    Mr. Milliband. Thank you very much.
    The Chairman. And Mr. Secretary, you can move through the 
back here with the Ambassador and others in your entourage.
    We'll just literally stand in recess for about a minute 
while we transition here.
    [Brief recess.]
    The Chairman. The hearing will come back to order.
    Ambassador Holbrooke has been a terrific friend to this 
committee, and to me personally, for years, and I appreciate 
his sharing and choosing this forum to unveil the 
administration's new Afghanistan and Pakistan regional 
stabilization strategy. I also want to express my 
appreciation--he is just back from a long trip. I saw him catch 
at least one yawn a little while ago, so I know he's struggling 
with jet lag here.
    But I want to express my appreciation for the job he is 
doing and the work he has undertaken. It is tough, tough work, 
as complex and as challenging as any foreign policy challenge 
that we have today, and I think everybody is appreciative of 
the time that he is taking to commit to it and of the job that 
he is doing.
    The new report that he is setting out today sets out key 
initiatives, specific milestones, and resource requirements to 
meet the goals. These are really things that many in Congress 
have been waiting for and asking for, a formal plan for the 
civilian side of our efforts, and I'm very pleased the 
administration has put such care and attention into shaping 
this response.
    Obviously, success in Afghanistan is going to be profoundly 
affected by what happens across the border in Pakistan, and I 
welcome the chance to hear from you today, Mr. Ambassador, your 
thoughts about the progress toward meeting the economic, 
security, and governance challenges there.
    We also appreciate receiving the first report mandated by 
the Kerry-Lugar-Berman Pakistan bill, and I think that's a 
source of greater transparency and accountability for how 
American money is going to be spent over the next 5 years.
    So thank you again, Ambassador, for being here.
    Senator Holbrooke--``Senator Holbrooke.'' Senator Lugar, do 
you have any additional?
    Senator Lugar. No, thank you.
    The Chairman. We welcome your testimony. Your full 
testimony will be placed in the record as usual, as if read in 
full, and we look forward to your comments.

STATEMENT OF HON. RICHARD HOLBROOKE, SPECIAL REPRESENTATIVE FOR 
 AFGHANISTAN AND PAKISTAN, DEPARTMENT OF STATE, WASHINGTON, DC

    Ambassador Holbrooke. Thank you, Mr. Chairman. What a great 
honor to be back in front of you and your committee again. I am 
delighted that you suggested that we have this hearing. We have 
timed the report you just mentioned so that it is released 
today in conjunction with this hearing in order to emphasize 
our strong sense of obligation to your committee.
    As you said, I have just returned last night from a trip to 
Germany, the United Arab Emirates, Pakistan, Afghanistan, 
India, and France, and will be leaving for London again in a 
few days. I congratulate you on having David Miliband here 
today. I think it's terrific to hear other voices, responsible 
voices, with similar but slightly different points of view, and 
I thought his testimony was extraordinary.
    The London conference is important. The last time we had an 
Afghanistan conference was March 31 in The Hague. Ten months 
later, following the elections in Afghanistan in which you, 
Senator Kerry, played such a critical role, and following the 
President's December 1 announcement of the troops, it was time 
for the world to get together again.
    We're grateful to Gordon Brown, David Miliband, and their 
government for summoning us to London, and we go with great 
enthusiasm. Our delegation will be led by Secretary Clinton and 
I will be honored to be part of it.
    I would like to discuss briefly my trip, cover a few other 
issues. I am accompanied here by certain key members of my 
staff. As you and I discussed many weeks ago, we both felt that 
the best way to illustrate the ``whole of government'' approach 
that the Obama administration has to this issue is to 
illustrate it in the most dramatic possible way, and I have 
brought with me, not all of course, but some key members of the 
staff, and I would like, with your permission, to ask them to 
rise when I finish my brief trip report.
    The Chairman. Mr. Ambassador, we welcome that. Let me just 
say for my part, and I know many of them and I know some of 
them personally, that you have assembled sort of an A Team of 
capacity for this endeavor, and that's as it ought to be, and I 
congratulate you for doing that. We welcome them here.
    Ambassador Holbrooke. In that case, Mr. Chairman, maybe I 
ought to introduce them right now before we lose the moment.
    The Chairman. Well, go ahead. Do that.
    Ambassador Holbrooke. I'm going to do this in the order 
they claim they're seated in, and I want to just preface this 
by saying that I brought representatives of all--of 9 of the 10 
agencies that work--excuse me, 8 of the 10 agencies that work 
together. The CIA representatives are not here, for obvious 
reasons, and our Department of Agriculture representative, Otto 
Gonzalez, is in Doha today on a very important mission.
    But if I've got this right, starting with Paul Jones--I'd 
ask each of you to stand up as I introduce you. Paul Jones is 
my senior deputy, a career Foreign Service officer.
    Next to him is supposed to be and is Vali Nasser, our 
senior adviser. I believe he's testified more than once before 
your committee.
    Next to him is Rena Miree, who we managed to steal from 
George Soros' foundation. She worked for the U.N. She was at 
the Bonn conference. She is our expert on Afghan internal 
politics.
    Next to her is Barney Reuben, who I think you all know. 
He's testified before your committee. We're immensely proud 
that the man that I personally consider America's leading 
expert on Afghanistan has left the sanctuary of academia and is 
being introduced to bureaucracy.
    Next to him is my senior adviser Ashley Baumer, who is an 
expert on communications and has worked with me for the last 
decade.
    Next to Ashley is your former staff member, Dan Feldman, my 
other deputy, who is well known to you and also had a close 
association with Senator Mark Warner.
    In the second row is Derek Hogan. Derek is our expert on 
the provincial reconstruction teams. He is absolutely 
instrumental. He's served in the field and claims to speak 
Dari.
    Next to him is our Treasury representative, Romi Shie. We 
never ever get to the subject, but it is enormously important, 
our attempts to interdict the flow of funds from the gulf. It's 
not true that the drug trade is the major source. It's one of 
three major sources. Another is illicit funds and the third I 
regret to say is extortion off the international contracts. 
Romi, who was with me on this trip, has been traveling around 
the region with his colleagues at Treasury. We're setting up a 
lot of task forces on this. The Senate majority leader, Senator 
Reid, has already had a personal briefing on these issues. If 
you wish additional information beyond the scope of today's 
hearing, we'd be happy to supply it.
    Next to Romi is our Office of Secretary of Defense 
representative Vikram Singh, also an expert in communications.
    Next to Vikram is Sepada Kavanshah from USAID.
    Next to Sepada is Tim List from the Department of Homeland 
Security. He is working full-time now on this hand security 
measures issue, which I will just say in parentheses--we won't 
get to it later--has got the Pakistanis extremely upset, these 
new measures. Tim List from DHS is working on that.
    Next to Tim is Maj. Gen. Bert Field, one of our two 
representatives assigned to us by the Chairman of the Joint 
Chiefs.
    In the third row, from the FBI Chris Ryman.
    Next to Chris is Alexander Evans, a loan officer from the 
British Government and an expert on politics and reintegration, 
reconciliation.
    Next to Alex is Matt Stiglis from the Department of 
Justice.
    Next to Matt is Beth Dunford, our other USAID person.
    Now, somebody said earlier they should all be back working 
and not up here, but I disagree, Mr. Chairman. I wanted you and 
anyone else who's watching to understand what ``whole of 
government'' means in its most visual sense. And everyone here 
needs to also understand the role of your committee, and I hope 
you will feel free to call on any and all of their resources 
during this hearing or at any time. I know you have been down 
to our office for breakfast. You've spent hours with these 
people. You know them all already. I know that Senator Casey 
has been there. We've had some 20 Members of the Senate and 
many senior Members of the House have breakfast with us. So you 
know what we're trying to do.
    Secretary Clinton and President Obama put together this 
interagency team in order to do what we're doing. With your 
permission, I would ask that the report that they assembled and 
which you already mentioned be also entered in the record in 
addition to my testimony.
    The Chairman. Absolutely. Without objection, it will be.

    [Editor's note.--The report referred to above was too 
voluminous to include in the printed hearing. It will be 
retained in the permanent record of the committee.]

    The Chairman. Let me just say, I think it's terrific to 
have the people, the sort of faces, if you will, and more than 
that, the people affiliated with this effort, and to recognize 
all of you and for people to see the coordinated effort that is 
taking place here. I think it's important and helpful. And if 
you're able to coordinate all of that, Afghanistan ought to be 
a piece of cake.
    Ambassador Holbrooke. It is--and I say this with no 
discredit to the many other people I've worked with over the 
last decades in the Department. But this is the best team I've 
ever been privileged to work with. And Secretary Clinton I 
think, who knows every one of these people personally, is very 
pleased with it.
    Mr. Chairman, let me start with Afghanistan and let me try 
not to duplicate what you already heard from David Miliband. 
But I would like to go back to the question that Senator Casey 
asked and add my own comments right at the outset. I was there 
with you in Afghanistan on August 22 and 23 when you saw 
President Karzai. We talked at the time, and I understand fully 
why you said what you said.
    So let me say something that may surprise you. When I saw 
Senator--when I saw President Karzai a few days ago, I found 
cause for encouragement, and I choose my words very carefully. 
I think each of you when you go back will see this.
    Let me put it in perspective. Today is 1 year since we 
started work in the Department of State, the day after the 
inauguration. In that 12-month period, 10 months were dominated 
by one issue and that was the elections, and you were there 
during that period, as was Senator Kerry. You came in August. 
Senator Kerry came at the crunch, deciding point.
    That election created so much tension and it so 
overshadowed everything else we were trying to do. It prevented 
certain programs from getting off the ground at all. It 
inhibited others. It raised an enormous challenge to our 
policy. In the end, we got through, again with tremendous 
assist from Chairman Kerry.
    While the press regarded the election as messy and the 
President of the United States used that term accurately--it 
was messy--the fact is that the procedures of the election were 
fulfilled. The independent election commission, which you 
visited while you were there, decided no one got 50 percent. 
Everyone acknowledged massive irregularities. And then, in a 
very dramatic set of events, President Karzai decided he would 
go along with the second round, and that of course was where 
Senator Kerry made what I think was a historically significant 
intervention in the process, and we--although he was working 
independently, we were coordinating closely. When President 
Karzai agreed to that election, his challenger withdrew.
    So I need to stress at the outset that President Karzai is 
the legitimately reelected President of the country. When I got 
to Kabul a few days ago and saw President Karzai, of all the 
meetings I've had with him going back over the last 6 years, I 
felt that this was the one in which he was most focused on the 
future, looking at the issues, and ready to move forward.
    We talked at length about London. We talked about the 
reintegration program that Foreign Secretary Miliband has 
discussed and many other issues. I don't want to promise you 
that corruption will disappear tomorrow. It won't, and 
President Karzai can't fix that problem on his own. I don't 
want to promise you that reintegration will suddenly bring 
thousands and thousands of people off the battlefield. All I 
can tell you, Senator, and for the rest of the committee, is 
that I found the situation in Kabul in a better position than 
it's been at any time in the year since we took office, and we 
inherited a very difficult situation, to put it bluntly.
    So that would be my first comment about Afghanistan, in the 
form of an answer to your very important question. There are 
some very good ministers who have been confirmed and some very 
bad ministers who were rejected. I regret very much that the 
minister of public health was rejected because she was 
outstanding. But that as I understand it was internal politics 
of the sort everyone here is familiar with.
    I do not regard to failure to confirm all the members of 
the Cabinet as a sign of confusion. We're slow in our 
confirmation processes, too. But I am very pleased with what 
we've seen, and I'll be happy to answer the question that 
Senator Lugar put in his introduction in a moment.
    Let me turn to Pakistan. Pakistan is an immensely 
complicated situation, far more complicated than Afghanistan in 
my mind, and our influence there is necessarily much less. 
Pakistan's economy is in difficult shape. IMF standby 
agreements are coming up. We're very concerned about it. We're 
doing everything we can do to help.
    The Kerry-Lugar-Berman legislation is enormously important, 
both symbolically and for its actual value. I found the 
understanding and appreciation of that significantly up since 
your trip to Pakistan, Mr. Chairman, and I hope that we will 
fully fund it in each of its 5 years that's called for. 
Personally, as I've said many times, I think the international 
community should do much, much more for Pakistan.
    So much for the economy. Now, in terms of what's happening 
in the west, the Pakistanis have undertaken two major 
offensives in the last year, one against--one in Swat and one 
in South Waziristan. These have been successful offensives. If 
we were sitting here a year ago--and in fact, when I first 
appeared before this committee early last year this was our 
major subject of concern. Well, they've begun to move. I know 
that all of you feel that they ought to do more and I 
understand that. We all hope that they will be able to find 
ways to deal with all of the militants in the frontier areas.
    But there are two full Pakistani divisions right now just 
in Swat, and they have pulled over 100,000 troops off their 
eastern border in order to deal with this. And there are 
capacity issues here. That's why, in addition to asking for the 
Kerry-Lugar-Berman legislation, we've asked for increases in 
FMF and other forms of military assistance. Pakistan is 
undoubtedly the key to the region because of its location, 
because of its peculiar history in terms of its 
interrelationship with Afghanistan.
    So while we understand that Pakistan and Afghanistan affect 
each other and are closely related, we also need to deal with 
Pakistan in and of itself as a critically important country for 
all the reasons you know--nuclear weapons, its relations with 
its giant neighbor to the east, its weak economy which needs 
tremendous support. And that is, by the way, why we're so, so 
hopeful that the ROZ legislation will pass the Senate--it 
passed the House in the last session--because it is both 
symbolically and substantively important.
    Pakistan is a country that deserves our sympathetic 
support, even though, as no one knows better than your 
chairman, they sometimes push us to the limits. Their reaction 
to the Kerry-Lugar legislation, their initial reaction, which I 
believe was based on a completely--a complete misunderstanding 
of what was in the legislation, their initial reaction was one 
that was understandably annoying to people up here. But thanks 
to Foreign Minister Koreshi's emergency trip here, Senator 
Kerry and Senator Lugar's intervention on behalf of that 
process, the explanations, your flying trip out there, I think 
we turned the corner on that.
    Finally on the countries I visited, Mr. Chairman, let me 
comment on India. India is not formally part of my mandate, but 
with the support of the Indians I try to go to New Delhi as 
often as I can to keep them informed and to discuss the 
situation with them. I don't think it would be valuable to go 
into details in the public forum, but I do want to stress that 
the Indians are very, very anxious that we succeed in 
Afghanistan. They're supporting us. They're giving Afghanistan 
a lot of aid, particularly in the field of agriculture, which 
is also our primary nonsecurity priority, agriculture. And I 
want to be sure that everyone here recognizes how centrally 
important India will be to this.
    Finally, Senator Lugar raised in his initial questions 
comments about regional strategy and other countries, so let me 
try very briefly to touch on some of our emerging bilateral 
relationships. I won't deal with the old relationships with our 
NATO allies and Japan, which you're familiar with, but the six 
countries we have developed emerging efforts to work with over 
the last year, and each one is different, Senator.
    The six we are developing strong relationships with and 
coordination are Egypt, UAE, Turkey, Jordan, China, and Russia. 
In each case--and there will be more. In each case, we have 
sent teams out to the area--I've headed some myself, Paul Jones 
has headed some, your former colleague, Dan Feldman, or your 
former staff member, Dan Feldman, has headed some--and we're 
developing bilateral relationships.
    You will note that Egypt, UAE, Jordan are all members of 
the OIC, and we are putting very heavy attention on that. 
Turkey is a critically important regional player which can help 
us. We have the same strategic goals. They're concerned about 
the Turkmen minority in Afghanistan and they have great 
influence in both countries.
    UAE is increasingly supportive. We have had a team in Cairo 
twice. I led one, Dan Feldman led the other. We're working out 
joint programs.
    Jordan is increasing its military and economic support and 
is willing to train Afghan police and army.
    China we're in preliminary discussions with, but I've been 
there twice and Dan Feldman led a team there, and President 
Obama raised the issue with Hu Jin Tao and it is mentioned in 
the communique.
    We have started the dialogue with Russia. Paul Jones and I 
went there. Paul is going back.
    So, Mr. Chairman, that is a very brief introduction to an 
enormous panoply of issues we're trying to deal with. I'm 
grateful and I'll be happy to answer any questions you have.
    [The prepared statement of Ambassador Holbrooke follows:]

    Prepared Statement of Ambassador Richard C. Holbrooke, Special 
   Representative for Afghanistan and Pakistan, Department of State, 
                             Washington, DC

    Chairman Kerry, Senator Lugar, thank you for your invitation to 
appear before this committee to discuss our civilian strategy and 
efforts in Afghanistan. I would like to begin by thanking our friend 
from the United Kingdom, David Miliband, for the U.K.'s indispensable 
leadership and commitment to our mission in Afghanistan. American and 
British soldiers are fighting side by side to achieve peace and 
security in Afghanistan. And American and British civilians are working 
side by side to help Afghans develop and govern their country so it 
will never become an al-Qaeda sanctuary again. The United States and 
United Kingdom will continue to stand together with the Afghan people 
to accomplish our shared mission.
    We are looking ahead with great enthusiasm to the London Conference 
on Afghanistan next week. It will be cohosted by U.K. Prime Minister 
Gordon Brown and U.N. Secretary General Ban Ki-moon and cochaired by 
the U.K. and Afghan Foreign Ministers, along with the U.N. Secretary of 
State Clinton will represent the United States. We will join 
Afghanistan, the U.N., and over 75 nations and international 
organizations to renew the international community's partnership with 
Afghanistan. Our objective for the London Conference is clear: to 
demonstrate the international community's support for Afghanistan's 
future, and the agenda outlined by President Karzai in his November 19 
inauguration speech. The London Conference will focus on Afghanistan's 
security, governance and development, and international coordination. 
We need to maintain momentum so that we continue to deliver progress in 
Afghanistan and set out the conditions for Afghanistan to take full 
control of its own security. If conditions are right, we expect that 
the London Conference will be followed by an international conference 
in Kabul later this year to present the Afghan Government's commitments 
to the people of Afghanistan.
    President Obama outlined a strategy in March 2009 that includes 
supporting the Afghan Government's efforts to disrupt, dismantle, and 
defeat al-Qaeda and its extremist allies. As he made clear at West 
Point on December 1, our civilian engagement in Afghanistan will 
continue long after our combat troops come home. While our military 
mission in Afghanistan is not open-ended, we are committed to building 
lasting partnership with Afghanistan. In line with the President goals, 
the London conference aims to enhance the international community's 
partnership with Afghanistan.
    Now is a good time for us to take stock of the past year. On 
January 20, 2009, the situation in Afghanistan was more precarious than 
many realized. Our basic strategy needed an overhaul. Our Embassy in 
Kabul lacked personnel, programs, and resources. The international 
community perceived that Afghanistan was not a top U.S. priority. Key 
regional actors, such as China and Russia, as well as Muslim partners, 
were not engaged in Afghanistan's future. In Washington there was no 
serious effort at coordination for our civilian effort and no agreed 
civilian strategy.
    Our relationship with Afghanistan looks much better than it did at 
this time last year. We have reclaimed the initiative. We have brought 
strategic coherence to our nonmilitary efforts; made major changes in 
our civilian priorities; overcome political crises; greatly increased 
American civilian resources; and mobilized significant international 
support for stabilizing Afghanistan.
    Before I go into greater detail on the progress we've seen this 
year and the strategy for the way forward, I want to elaborate on our 
engagement with international partners to stabilize Afghanistan and 
Pakistan. This has been a major focus of Secretary Clinton and my 
efforts, and just yesterday I returned from a trip that took me to 
Europe, the Middle East, and South Asia aimed at bolstering the 
international effort to help Afghanistan. As President Obama said, the 
future stability of Afghanistan and Pakistan affects ``the security of 
our allies, and the common security of the world.'' Based on that 
insight, we have engaged in intensive diplomatic outreach to build a 
broad international coalition in support of our common objectives in 
the region.
    Of course this includes working with our closest partners, and I am 
pleased that Foreign Secretary Miliband was able to brief you on the 
London Conference next week. The European Union has announced an Action 
Plan for Afghanistan and Pakistan that focuses on civilian assistance 
in vital sectors. Turkey continues to be a vital partner, increasing 
their military commitment and managing innovative projects in 
agricultural exports and other fields. Russia is providing overflight 
rights, and China has engaged in productive consultations over our 
common objectives. Countries throughout the wider Muslim region are 
also playing a leading role. The United Arab Emirates announced the 
appointment of a resident Ambassador in Kabul last week, one day before 
hosting a meeting of my counterparts from almost 30 countries and 
international organizations, including some of the most active 
countries in the region.
    Through the international group of my counterparts--the ``SRAP'' 
collective--and by strengthening international civilian institutions in 
Kabul, we are also working to ensure that increased international 
resources are well-coordinated and well-used. The London Conference 
should be able to announce important progress in strengthening civilian 
coordination in Kabul under the leadership of the United Nations but 
with strong support from ISAF, the EU, and others.
    Mr. Chairman, I would now like to summarize a few of the key 
civilian-led initiatives underway in Afghanistan--which is summarized 
in the comprehensive civilian strategy that we are releasing today. We 
are implementing a new civilian-military agriculture redevelopment 
strategy that will sap the insurgency not only of foot soldiers, but 
also of income from the narcotics trade. We are expanding subnational 
capacity-building efforts, focused mainly in key population centers in 
the East and South, through new civ-mil initiatives, such as the 
District Development Working Groups and District Support Teams, and 
supporting programs that give Afghans a greater stake in their own 
government, such as the National Solidarity Program. And we are 
improving coordination of international assistance by consulting with 
our allies and partners to strengthen the United Nations Assistance 
Mission in Afghanistan and enhancing civilian coordination among ISAF 
partners.
    Last week, Secretary of Agriculture Vilsack visited Kabul to 
highlight the fact that agriculture is our most important nonsecurity 
program. We are very pleased with the efforts and progress to date we 
have made with our Afghan partners; 2009 was the best agricultural year 
Afghanistan has had in the last 30 years--a reflection of good weather, 
increased security in agriculture areas in the South, and our robust 
civilian assistance efforts. We have dozens of USDA advisers in the 
field working closely with Agribusiness Development Teams from National 
Guard units from such states as Nebraska, Missouri, and Texas. These 
agriculture experts work closely with their local and provincial Afghan 
counterparts to revitalize this historically successful economic 
sector, boost job creation, and encourage the population to stop opium 
production and wean Afghan youths from joining the Taliban and 
supporting terrorists. Our military and civilian success in former 
Taliban-controlled areas will generate word of mouth in Afghanistan and 
create additional momentum to enable the Afghan Government to more 
effectively deliver services in these areas and successfully fight the 
Taliban and al-Qaeda.
    To help implement this strategy, we have bolstered our diplomatic 
and development presence in the field, and work very closely with 
Ambassador Eikenberry and his team in Kabul. In Washington, we are also 
pursuing a whole-of-government approach. I lead a team of experts and 
senior advisers from 10 U.S. Government departments and agencies, 
headquartered at the State Department. They represent USAID, Treasury, 
the Department of Justice, Homeland Security, the Joint Chiefs of 
Staff, FBI, CIA, OSD, and USDA. We work seamlessly with the NSC and 
CENTCOM, as well as in close coordination with Ambassador Eikenberry 
and his strong team in Kabul. Together, we are implementing our 
political, economic, and diplomatic efforts.
    We have nearly tripled the number of civilians on the ground since 
January 2009--but the numbers are not the only measure. We need to do 
more than just fill personnel slots--we need to be sure that we are 
putting the right people in the right places. We also have true civ-mil 
integration and cooperation nationwide--not just in Kabul, but also at 
RC-East and RC-South. This is possible because of the efforts we have 
made to recruit and send more qualified civilians into the field. Today 
key civilian experts are able to deploy with military units in places 
like Helmand province where insurgents operated uncontested just a few 
months ago.
    A final note on civilian staffing in Afghanistan: unlike their 
military counterparts, civilians are selected and deploy as 
individuals, not units. That is what makes this huge increase in 
civilians to Afghanistan so impressive. The civilian impact is far 
greater than numbers: the average civilian leverages 10 partners--
locally employed staff, Afghan and international experts from U.S.-
funded NGOs. There is a different purpose and way of working on the 
civilian side: we want the civilians supporting and building the 
capacity of their Afghan counterparts who must be the forward face of 
these shared programs.
    Mr. Chairman, we have no illusions about what faces us in 
Afghanistan. The challenges there are immense. The Afghan Government is 
under assault from the Taliban and struggling to provide security, 
jobs, and basic justice to a society devastated by more than 30 years 
of war.
    One weapon that the Taliban and al-Qaeda use very successfully is 
information, seeking to dominate the information space through direct 
communications or intimidation, and by working through religious or 
nationalist media outlets. They have a well-oiled rapid-reaction 
propaganda machine that constantly uses graphic images, intimidating 
telephone calls, and CDs and DVDs distributed in local bazaars, while 
disavowing responsibility for bombings they conduct which kill large 
numbers of civilians. Therefore, while our previous strategy focused 
largely on traditional public diplomacy and communications tools, we 
are now elevating our communications efforts in importance and 
innovation. We are helping to build communications infrastructure and 
capacity; conducting sustained media and outreach strategies in both 
countries; and fostering a localized grassroots movement on the ground 
through mobile and radio initiatives--including leveraging new 
technology to foster socioeconomic benefits though e-banking, learning, 
and health.
    Secretary Clinton has said that while only the Afghan people ``can 
defeat the insurgency once and for all'' and ``build a successful 
democracy that lasts,'' it remains the responsibility of the United 
States to partner with the Afghan Government over the long term to 
achieve these goals. We cannot do so unless we implement an integrated 
civil-military strategy in Afghanistan.
    Achieving progress will require continued sacrifice not only by our 
military personnel, but also by the more than 1,500 U.S. Government 
civilians serving in Afghanistan and Pakistan. But for the first time 
since the conflict in Afghanistan began 8 years ago, we have an 
innovative, whole-of-government strategy to protect our vital national 
security interests in this region--the strategy as articulated by 
President Obama last year and spelled out in more detail in this 
document before you today. When combined with U.S. military efforts to 
build Afghan and Pakistani security capacity, our political, economic, 
and diplomatic efforts constitute an unprecedented interagency 
undertaking. And as I saw again during my recent visit to the region, 
our civilian personnel are working together with our Afghan and 
international partners as never before. Their efforts are vital to our 
success in protecting and advancing American interests.
    Mr. Chairman, let me close on the most important point: we could 
not do this without the support of this committee or the Congress. You 
have been indispensable partners. Over the past several months, many of 
you have come to the State Department to meet members of my interagency 
team; you have led numerous delegations to both Afghanistan and 
Pakistan to better assess the needs on the ground; and worked closely 
with us on important legislation, like the Kerry-Lugar-Berman bill. I 
hope we can continue the open, frank, and regular dialogue we have had 
over the past year. Secretary Clinton and I are deeply committed to 
doing more in order to protect and advance American interests side by 
side with Congress.
    I believe the President's strategy--as spelled out in detail in 
this document--offers our best prospect for stabilizing Afghanistan and 
the region, and to disrupt, dismantle, and defeat al-Qaeda and its 
extremist allies so they are no longer a threat to the United States 
and our interests. I look forward to continuing to work with you and 
the Congress to secure the resources we need to achieve our mission and 
to signal our continued commitment to Afghanistan and our international 
partners.

    The Chairman. Thank you very much, Mr. Ambassador.
    Let me begin by asking you for sort of a general assessment 
of the civilian piece. A lot of us have been saying for a long 
time, and I think you've been in agreement, that since there is 
no military solution, the key here is to be able to get the 
Afghans to start doing things, delivery of services, delivery 
of governance at the local level.
    Give the committee, if you would, your best summary and 
judgment of what progress we've really made since the 
inauguration, since this moment of new opportunity for 
President Karzai to change the dynamics? Give us your 
assessment of what that state of progress really is on the 
ground and of where we stand with respect to the civilian 
capacity to come in under these additional troops and make this 
transition work?
    Ambassador Holbrooke. I want to be clear I understand your 
question. You're referring not to reintegration, but to----
    The Chairman. I'm not referring to reintegration except to 
the degree that it's just part of the larger strategy. I'm 
referring to the civilian capacity to deliver governance, 
deliver services, do development, come in underneath the clear 
and hold, so that you're building and transitioning and 
transferring. I'd like to get your sense of where we are in 
terms of the personnel and capacity to empower the district and 
provincial governance that is so critical here.
    Ambassador Holbrooke. We're just starting, Senator. That 
is--we have on paper a plan that takes you from the clear 
phase, which the U.S. military and its NATO allies do so well, 
through the hold phase. But when you get to build and transfer, 
we are just starting, particularly in Helmand and Kandahar.
    You take Nawah District in southern Helmand, which has 
gotten a lot of publicity, ``60 Minutes'' profiles and so on. 
The Marines went in with a thousand people, took over the area, 
which greeted them with great excitement. That was the Little 
America area that the Kennedy and Johnson administrations had 
done so much in, and a lot of the people remembered the 
Americans or had heard about them from their parents.
    But there were no Afghans, so to speak, with the American 
military and civilians when they went in. And when they do go 
in, they don't have office space, they don't have telephones, 
they don't have resources. It's a long, long way from Kabul to 
Lashkah Gar or Nawah.
    The Chairman. What does that say about our prospects here, 
then?
    Ambassador Holbrooke. Well, I'm giving you--you wanted a 
snapshot. The snapshot is a blueprint which has got to be 
filled in. These things--I hate to say this because time is not 
always our ally, but these things do take a certain amount of 
time. Until that election was behind us--and that was only 2 
months and 2 days ago from today, November 19--until that 
election was over, we couldn't get to that issue, Mr. Chairman.
    We could do agriculture. Agriculture is the big success 
story of 2009. It is creating jobs and stopping the poppy 
eradication was a tremendous achievement. But when you get to 
governance, then we're talking about a much more difficult 
issue. Derek Hogan, who I introduced to you a minute ago, his 
focus is on this issue. We call it subnational governance. What 
it means is what are we going to do at the district level?
    Well, we have got a ton of plans. They're outlined in here, 
and I would be happy to submit for the record a much more 
detailed explanation. But I----
    The Chairman. Let's put them into the record and let me 
sort of extend the question a little bit. As an example of the 
kind of thing that I think represents the challenge, you're 
more than familiar with, obviously, the national solidarity 
program. It's really been in many people's judgment one of the 
most successful Afghan-run----
    Ambassador Holbrooke. The most successful.
    The Chairman. The most successful, and I would agree with 
that. It's touched the lives of two out of three people in the 
rural arena. It's the only program I know of that's reached all 
of the country's 34 provinces, and really that's affected the 
lives of about 13 million villagers.
    I am told that as a result of that program about 28 percent 
of the population now has drinking water where they didn't, 25 
percent have better roads, access to markets, marketplaces, 18 
percent have better irrigation systems, 16 percent now have 
access to power, 11 percent of the children are studying in 
reconstructed schools.
    These are all big deals. That's the up side that you never 
hear about with respect to Afghanistan. But--and here's the 
``but,'' and it goes to this question of President Karzai and 
the direction we're taking. The ministry of rural 
rehabilitation and development runs that program, and we've 
invested hundreds of millions of dollars in it. The new MRRD 
Minister, Jarullah Mansuri, is essentially a political pick 
who--I hate to say it, but he simply doesn't have the 
experience or the level of ability to manage a program like 
this. And worse, he has made public comments suggesting that he 
plans to scale back those programs drastically, which then 
jeopardizes the one big success story that we have.
    So how do we--where are we with respect to that, and how 
does that fit into this notion that this is sort of the moment 
of opportunity and truth, where these kinds of setbacks just 
aren't tolerable?
    Ambassador Holbrooke. We agree with you about the NSP. It 
is the most successful program, and we are expanding it and 
enlarging it with the enthusiastic support of the Senate, which 
has repeatedly told us it's your favorite program as well, and 
we will continue to do so.
    The reason it's so successful goes to a central point that 
goes back to Senator Casey's question. The United States has a 
tendency to personalize the country's government and put 
everything on the head of President Karzai, but that isn't 
consistent with Afghan history, tradition, and no government 
can ever flow through the top. But this has not been a highly 
centralized government most of its history, and certainly not 
after the last 30 years.
    So programs that go directly to the district level and 
below are valuable, and whatever the references you've made, we 
are going to continue to emphasize this program.
    The Chairman. Have you raised that issue about its 
leadership with the President?
    Ambassador Holbrooke. I've not discussed the minister, Mr. 
Chairman. I've discussed the program, and President Karzai has 
reassured us--Ambassador Eikenberry, myself--that this is an 
issue that he will support, this is a program he'll support.
    But, based on what you're saying, we'll go back and batten 
down the hatches and my crack team behind me will send out a 
cable tonight asking for more information, and we'll get back 
to you----
    The Chairman. I appreciate it.
    Ambassador Holbrooke [continuing]. Because this program 
should be expanded. In fact, the World Bank did a study in 
conjunction with Harvard and the ministry recently. They looked 
at 500 villages in the south, and what they found, and I'll 
quote. The assessment was that ``NSP overwhelmingly 
demonstrated a positive impact on economic development, local 
governance, female involvement in local government, girls 
school attendance, and perceptions of the government from 
Karzai on down, and security at the village level.''
    Then they went on in this memo I have. The researchers and 
the World Bank not only welcome the U.S. commitment to NSP, 
they were happy to hear about our plan for putting another $300 
million into NSP. Remember, the program phased out, so we 
inherited a good idea with an empty piggy bank, and we had to 
come back to you. Another one of these inexplicable 
inheritances.
    But they went on to say that they stressed ``The next phase 
of NSP's development will require nearly a billion dollars.'' 
Now, that doesn't need all come from the United States. The 
World Bank is a big supporter, and other countries. But we are 
big, big supporters.
    The Chairman. And for good reason.
    [The written information from Ambassador Holbrooke to the 
above question follows:]

    The U.S. must be willing and prepared to work closely with duly 
appointed ministers such as Jarullah Mansoori, who was appointed as the 
Minister for Rural Rehabilitation and Development by President Karzai, 
and confirmed in the position by Parliament on January 16, 2010. Prior 
to his appointment as Minister, Jarullah Mansoori served as an adviser 
to Minister of Interior Hanif Atmar while the latter was the MRRD 
Minister. He also worked as an adviser to former Minister of Justice 
Abdul Rahim Karimi, and as Deputy General of the Afghan National 
Environmental Protection Agency (NEPA).
     Ambassador Eikenberry met personally with the newly appointed 
Minister on January 26 to specifically raise some of the issues and 
concerns you have highlighted. In addition to his commitment to 
fighting corruption and restoring the rightful place of women in 
society, as highlighted in his presentation to Parliament, Minister 
Mansoori confirmed his strong support for the National Solidarity 
Program (NSP), among other key initiatives. The NSP forms a critical 
element of subnational governance programs, and a mechanism that has 
proved successful--as you have rightly identified--in connecting the 
Government of Afghanistan to the population. Minister Mansoori has 
stressed his willingness for national inclusion in MRRD projects, and 
the need to focus on sustainability and capacity-building of the 
systems currently in place. We will therefore continue to support MRRD, 
and Minister Mansoori, in developing these systems (including programs 
such as NSP) to strengthen the links between central, provincial, 
district, and community levels to enable GIROA delivery of a package of 
basic services to the population.

    The Chairman. Senator Lugar.
    Senator Lugar. Thank you very much, Mr. Chairman.
    Ambassador Holbrooke, let me ask a question about 
relationships between the remarkable staff that you have 
coordinated, which I understand is comprised of as many as 40 
persons in Washington, and the country team in Pakistan. The 
reason I ask the question is that after returning from staff 
visits, members of our Foreign Relations Committee staff have 
indicated that certain arguments and tensions exist between 
your staff and the country team. I suppose those are 
unavoidable, but the fact is that this is an unusual situation, 
in which there is an ambassador and a country team in Pakistan, 
in addition your very large staff that's also there from time 
to time.
    How are you coordinating the relationships between these 
groups of people? Who is in charge, and can you describe the 
process of reconciling these views in a bit of detail?
    Ambassador Holbrooke. The easiest way to explain the 
situation, Senator, is to simply point out what my job is. I'm 
not a special envoy like George Mitchell or Todd Stern. The 
title ``Special Representative'' was designed to indicate that 
two Embassies, Kabul and Islamabad, were put under our direct 
supervision, working in close conjunction with, but separate 
from, the South and Central Asia Bureau, headed by Assistant 
Secretary Bob Blake. In fact, Paul Jones, my senior deputy, is 
dual-hatted as a deputy assistant secretary in that Bureau.
    Therefore, we have a seamless relationship with the Bureau 
that's responsible for India and Central Asia. Our job, as 
stated by the President, is to oversee the embassies in the 
regular chain of command. In other words, they're instructed 
ambassadors who report through us to the Secretary of State, 
just like any other ambassadors in the world.
    I've been in and out of the State Department now for over 
40 years and almost every embassy and every home office has 
disagreements. There have been some well publicized 
disagreements over the size of our aid commitments in both 
countries. I think that's in the normal course of affairs.
    There is no problem between the Embassy in Islamabad and 
our office, except the routine bureaucratic things that go on 
day after day, 90 percent of which, Senator Lugar, are in the 
end results of inadequate communication across 10\1/2\ time 
zones.
    I was just in Islamabad and Lahore with Ambassador 
Patterson and her team for 3 days and there was no problem and 
no friction. There was one area, however, that Secretary 
Clinton and I and Under Secretary for Public Diplomacy Judith 
McHale all have been deeply concerned about. That goes back to 
things you said earlier, both of you: Americans are not well 
appreciated in Pakistan, despite the fact that we give them a 
massive amount of assistance. Both Secretary Clinton and Under 
Secretary McHale and I all felt that our public diplomacy 
programs were inadequate and we had to revamp them top to 
bottom. We had to bring in new personnel and we had to change 
the whole method of operations there.
    This is an ongoing effort. I know that Senator Kaufman has 
been particularly interested in this and I'm very grateful for 
his constant assistance by nudging us, because it's a very 
difficult situation when you authorize and appropriate vast 
amounts of money for a country and it is misrepresented in the 
press. We had no--there was no plan in place to explain the 
Kerry-Lugar bill to the Pakistanis the day you passed it. So 
what happened? All the publicity came in without any warning, 
misrepresenting it.
    Again, I express my appreciation to all of you for what you 
did to unravel it. But it should never have happened. I speak 
not only for myself, but for the Secretary, who has said this 
publicly, that we had to do better.
    Two of the people sitting behind you, Vikram Singh and 
Ashley Baumer, are particularly focused on that. It's part of a 
larger issue about communications and counterpropaganda.
    But that was not a source of friction, Senator Lugar. It 
was an identified gap. It was a legacy issue, and we have 
turned to it as one of our highest priorities and will continue 
to.
    Senator Lugar. Let me mention that Senator Kaufman and I 
were in the front row to hear Secretary Clinton's speech this 
morning on the use of the Internet and other communications as 
a vital part of our new public diplomacy strategy. I thought it 
was a very important speech and one which hopefully illustrates 
some of the points you have just made.
    Let me just touch----
    Ambassador Holbrooke. May I interject one quick point, 
Senator. I would add that several of the examples in her speech 
were either directly from what we're doing in Pakistan and 
Afghanistan or, in the case of Haiti, 20222 on your dial, we 
had pioneered that in Swat when the refugees hit. So the 
technology was in place and we were able to simply transfer it 
to Haiti, where they've raised $25 million in just a few days.
    Senator Lugar. That is a very important point, and she did 
mention Pakistan and Afghanistan, as well as Haiti.
    Let me follow up on a question I raised in my opening 
statement. What is the plan for the $200 million directed this 
year to education in Pakistan? How do you even begin to 
approach this issue? What sort of organized effort is there in 
a country which, as we have often commented in our hearings has 
virtually no public school system? It is hard to tell whether 
there is any organization, quite apart from bureaucracy. How do 
you disburse and supervise $200 million?
    Ambassador Holbrooke. In a country of 180 million people, 
the education system must be reformed by the country itself. No 
amount of outside money can do it, and yet we have to give them 
money to support it.
    You said $200 million. Actually, the $200 million was 
fiscal year 2009. For this year it's slightly larger. It's gone 
up to $265 million under Kerry-Lugar.
    With your permission, I'd just like to answer your question 
as follows. There's basic education and higher education. The 
basic education is $265 million in the fiscal year 2010 budget 
and in accordance with the parameters laid out in your own 
legislation. This is basic education to support education 
reform programs to build and rehabilitate schools, provide 
essential teacher and learning materials, strengthen local 
school management, improve teacher training. AID's going to 
support innovative approaches to increase school enrollment 
through public-private partnerships. In the Federally 
Administered Tribal programs, we're going to help increase 
enrollment.
    You know, the literacy rates are in the single digits and 
half of that for women in the Federally Administered Tribal 
Areas. It's a huge problem. The reason it's so important goes 
back to the communications issue. When you look at what's 
happening out there, people who are illiterate and do not know 
what the Koran says are being misled by fiery radicals 
misrepresenting it. There's a direct correlation.
    Three weeks ago a teenager suicide bomber killed over 100 
people--a small headline in the press here--in a volleyball 
area in his home village. What the press didn't emphasize was 
that that man, that boy, killed two of his brothers and all his 
friends.
    You have to think about that. It's quite different than the 
Nigerian on the plane to Detroit or the Jordanian who went in 
and killed our brave CIA colleagues. This is a kid who was 
completely misled by radio and never went to school, and he 
killed his own family. That's why this program is so important.
    Turning to higher education, we have another $70 million, 
so this year it'll be over $300 million in higher education, to 
increase enrollment and improve quality through strengthening 
tertiary institutions, providing scholarships for colleges; $45 
million is going for the Pakistan higher education commission 
and $20 million to Fulbrights.
    May I add in regard to this money another point. At your 
direction and the President's direction and Secretary Clinton's 
direction, we are trying to eliminate the intermediary 
contracts, which gives us greater flexibility, cuts the 
overhead. We're throwing away 15 to 25 percent of the money you 
appropriated for people--it never left the United States or it 
never left the intermediary NGOs or contractees.
    But I don't want to mislead you; 180 million people, $300 
million--this is going to be really tough. The earlier list of 
countries I referred to--Egypt, Jordan, Turkey--they have a 
unique opportunity to also work in the religious educational 
institutions, which by law we cannot do.
    The Chairman. Ambassador Holbrooke, I just wanted to 
intervene, because I need to meet with the Foreign Minister for 
a few minutes privately on a couple of those issues. I would 
like to be able to get together with you. Are you leaving--when 
do you leave for London?
    Ambassador Holbrooke. Tuesday morning.
    The Chairman. You leave Tuesday morning for London.
    Ambassador Holbrooke. Back Friday of next week, and then--
--
    The Chairman. Perhaps it would be possible on Monday we 
might--let me see what we can arrange----
    Ambassador Holbrooke. I'd be delighted here.
    The Chairman [continuing]. To follow up on some of what 
we've talked about here.
    Again, I want to thank all the members of the team. I know 
how hard you're all working. There is no issue more important 
to us than being successful in Pakistan and, obviously, with 
Afghanistan. So we are grateful to you for that effort.
    Senator Casey and then Senator Kaufman, and Senator Lugar 
is going to chair in that period. I apologize. I need to run to 
this meeting, but I thank you very, very much.
    Ambassador Holbrooke. Thank you, sir.
    Senator Casey. Mr. Chairman, thank you very much.
    Mr. Ambassador, we're grateful for your testimony here and 
the great work that you're doing, especially thinking in the 
larger sense, at a time of real danger around the world and a 
time of importance to our country you're serving it again. 
We're grateful for that public service.
    You were kind enough to provide a briefing for me with your 
team. For those who are wondering what those morning meetings 
are like, it was very businesslike. I think I got a cup of 
coffee, but that was pretty quick.
    Ambassador Holbrooke. Senator Franken ate every piece of 
fruit available.
    Senator Casey. I don't remember being offered the fruit. 
I'll have to try that the next time. [Laughter.]
    But you've obviously assembled a great team, and I want to 
commend their continuing commitment to public service on these 
important issues.
    Let me try to raise at least two issues with you in the 
time that we have. The first one obviously is very grave and 
troubling issue for a lot of Americans. When we hear about 
those who gave, as Lincoln said, the last full measure of 
devotion, those killed in action, increasingly and disturbingly 
it's with IEDs.
    We know that there's a different treatment really of 
ammonium nitrate-based fertilizer in the two relevant 
countries. In one place this kind of fertilizer is legal and in 
the other place it's illegal. In the case of Afghanistan, 
although it is illegal, and we know, at least I'm told, that 
the ammonium nitrate-based fertilizer accounts for only 5 
percent of the fertilizer in Afghanistan, but it's used in the 
overwhelming majority of the IED attacks.
    What can you tell us--as we talked earlier, I've submitted 
a letter to Secretary Clinton on this. What can you tell us 
about efforts made, that you and others have made in the 
administration to engage the Pakistani Government to help us 
with this problem where this fertilizer is used to kill or be 
part of the component parts of the IEDs that kill our soldiers?
    Ambassador Holbrooke. Ambassador Patterson and our military 
people in Islamabad, Admiral LeFevre, have raised this with the 
Pakistanis on many occasions. I have raised it, too. They claim 
they're sympathetic, but what can they do; it slips through the 
borders, of course.
    I was very pleased that the ISAF forces in Kandahar 
discovered that huge cache of ammonium nitrate earlier this 
year. I read your letter very carefully and we are prepared to 
come up here and talk at greater detail about it.
    Also, Under Secretary of Defense Ash Carter, who has been 
tasked with the anti-IED mission separate from the ammonium 
nitrate, is working on various ways to do this.
    I'm just given a note here: Karzai just outlawed ammonium 
nitrate, banning import, production, transportation, sale, use 
and storage of the fertilizer today. It was my understanding it 
was already banned, so maybe he reissued it or tightened it. 
But let me check on what that's about.
    If we could reschedule a separate briefing for you and any 
colleagues who are interested in accordance with your letter to 
Secretary Clinton, I would be happy to do so. It's a huge issue 
and I'm very grateful to you for highlighting it.
    Senator Casey. Thank you very much.
    Ambassador Holbrooke. You know the amount of ammonium 
nitrate that they captured in that one bust in Kandahar was 
equal to 1\1/2\ years at the current use of IEDs using ammonium 
nitrate. And they must have had a lot more, because they're 
still doing it. But that was a big, big haul and it must have 
set them back. But imagine what that was, and that was a 
warehouse right in the city of Kandahar. So it was a stunning 
event.
    Senator Casey. I appreciate the attention to this that 
you've brought, and I want to commend Secretary Clinton, not 
only in isolation on this issue, but more generally with the 
way she's approached committing the resources that you and your 
team have been able to take advantage of.
    I wanted to raise one more question before my time is up, 
with regard to Pakistan and in particular President Zardari's 
government. Obviously, even a casual observer in the United 
States of the challenge that both countries pose for us, both 
security and governance and otherwise, has to be concerned 
about the stability of both governments. I wanted to get your 
sense or your assessment really currently of President Karzai's 
government in terms of just the day-by-day functioning of that 
government. The concern that I have and others have is if he is 
in any way weakened over time, and some of that because of 
internal politics and rulings by their court system, if he is 
in any way weakened and therefore the Pakistani People's Party 
is weakened, that will downgrade or deteriorate their ability 
to go after the extremists and the terrorists that we're trying 
to put pressure on ourselves, as well as I know the great 
effort that the Pakistani Army, General Kiyani and others, have 
put forth already.
    So I wanted to just get your kind of general assessment of 
the government and how he's doing, President Zardari, as their 
President.
    Ambassador Holbrooke. We saw President Zardari in Lahore 
during this trip, and I emphasize that it was in Lahore because 
he had embarked on a barnstorming tour of the country, which is 
well described in today's New York Times in an outstanding 
article by Sabrina Tavernezi. He had gone to Baluchistan, 
Lahore, Karachi. I think he went to several other places. He 
was clearly revitalized and reenergized by that experience.
    Now, in regard to the larger issue, I got in a little bit 
of hot water because I started talking about the internal 
political situation in what I thought were analytical terms in 
a recent interview, and people immediately dissected it in ways 
which were not what I intended nor what I said. But then we had 
to correct. So I want to be very careful, Senator.
    We support the civilian democratically elected Government 
of Pakistan. Internal discussions about how power is 
distributed and legal--and changes in accordance with the law 
is something for Pakistan and we do not want to infringe on 
their sovereignty.
    As far as the military goes, they have conducted excellent 
military operations recently, as I said earlier. They are 
facing a multitude of problems. Secretary Gates was in 
Islamabad today talking to them. I do not yet have a report on 
his meetings.
    But I just cannot stress any other point except that the 
Kerry-Lugar bill was specifically designed to give the civilian 
government more resources on the civilian side, without in any 
way reducing the military. I think that that's an important 
statement of the will of your Chamber and of the executive 
branch.
    Senator Casey. Thank you very much.
    Senator Lugar [presiding]. Thank you very much, Senator 
Casey.
    Senator Kaufman.
    Senator Kaufman. Thank you.
    Thank you, Ambassador Holbrooke, for your service to the 
country, and to your team. Every interaction I've had with 
members of your team has been a positive one. You have 
assembled a fine group of professionals and I want to thank 
them for what they do every day.
    You talked a little about communications strategy. Is there 
anything else you want to talk about in terms of what you're 
doing in Afghanistan and Pakistan?
    Ambassador Holbrooke. With Chairman Lugar's permission, 
could I ask if Vikram Singh and Ashley--I don't know if this is 
allowed, Senator, but could they respond briefly to the 
Senator's question?
    Senator Lugar. Yes.
    Ambassador Holbrooke. Thank you.
    Vikram, Ashley, why don't you give a quick response. Just 
rise.
    Mr. Singh. Thank you, Ambassador Holbrooke. Thank you, 
Senator Kaufman, Mr. Chairman.
    Can you guys hear me without the mike?
    In both Afghanistan and in Pakistan, we really found that 
we had a fairly traditional approach to public relations and 
communications overall. What we've started to do over the last 
year is to really revamp that entirely. In both countries we've 
created strong, unified teams inside the Embassy to look at all 
related communications issues, not just public relations 
meeting in one place and exchanges and people-to-people stuff 
being in another place, but somebody who is pulling everything 
together and who is focusing on what it takes in those 
countries to counter the pernicious influence of enemy 
propaganda, basically the ability of the militants in both 
countries to directly communicate and very actively communicate 
to populations who in general are either not reached by much 
other media or simply don't have a lot to choose from in what 
they're able to listen to.
    So we're working very hard to increase the reach of 
communications throughout those countries. So that is getting 
cellphones, radio broadcast, television broadcast out into 
areas that are really untouched. Both countries have pretty 
robust media environments, but they don't get out to a lot of 
the areas that are of most concern to us and where the 
militancy really has its roots.
    We're also working with the Afghans and Pakistanis to 
support programming and other content that will be relevant to 
and will actually be meaningful to the people in those areas. 
So we reach out to them on the airways.
    Then we're really leveraging new technologies, so we're 
looking in both these countries, it's remarkable. Afghanistan 
had really no telephones in 2002. Over 50 percent of Afghans 
now have access to cell phones. They use things like SMS. They 
play games on their cell phones. Even with a low literacy rate, 
people use their literate cousin or their literate relative to 
send messages back and forth.
    So we're looking at things like Mobile Money----
    Ambassador Holbrooke. Could you mention our experiment with 
payments for the police, because that addresses your concerns 
on attrition and desertion as well.
    Mr. Singh. We're looking at things like Mobile Money, and 
the pilot for that is actually a program with the Afghan 
National Police. One of the key problems for the police is they 
get their money in cash, which leaves them liable to be robbed 
or to have money skimmed off the top as it flows down. It also 
means that to get it to their families they have to get home, 
and often they'll be gone for a week at a time every month to 
carry the money home to their families.
    Mobile payments actually allow the funds to be on a 
cellphone. The pilot was very successful and is now being 
expanded actually, really with the leadership of the Treasury 
Department and my colleague right next to me is a big part of 
trying to make this work. It's going to be expanded to 
additional ministries throughout the course of this year.
    When that happens, they get their full pay, and many 
policemen noted in the studies that were done after the pilot, 
noted that they didn't know how much they were actually paid. 
They all thought they were paid about 30 percent less than what 
they got, because it wasn't all making it to them. And it means 
they don't have to take off and you don't have the problem of 
ghost soldiers.
    We're also just trying to help foster communities through 
these new technologies, so that people can share information, 
be it about criminality, about incidents on the road, about 
attacks, or just about farming, market prices in areas that 
farmers take their goods to market. So it's a range of things, 
Senator, and obviously I can only touch on a few here for you. 
But there's just really a lot going on and it's a very exciting 
area.
    Ambassador Holbrooke. We have in fiscal year 2010, we have 
$50 million for Pakistan and $90 million for Afghanistan in 
these programs. But that way understates what we're going to 
spend because a lot of--there's much more money in the Pentagon 
budget. We are working very closely with Admiral Smith on this 
program, and we have just recruited our civilian coordinator 
for this, who some of you may remember, David Ensor, former 
ABC-CNN correspondent, who is going to be out there within a 
few weeks to coordinate this program. I think we might ask him 
to come up and call on some of you before he goes, if you wish.
    Senator Kaufman. Are you coordinating this with the 
Broadcasting Board of Governors, Voice of America, or Radio 
Free Europe, Radio Liberty?
    Ambassador Holbrooke. Very much so, very much so. In fact, 
perhaps not in this session, but there are a couple of items to 
bring to your attention in that regard, some good news 
actually, for a change.
    Senator Kaufman. And while they have a robust media 
environment in Pakistan, I think historically they've not let 
international broadcasters on. They've really controlled who 
gets on the air. I think this is a government-to-government 
thing. I've often felt that one of the things we should do in 
Pakistan is allowing the broadcasters to be on the air so that 
people can hear it.
    Ambassador Holbrooke. Well, Voice of America has been 
functional in Pakistan.
    Senator Kaufman. It's functional, but it's not on the 
proper stations that people listen to. There aren't affiliates 
in their--the Pakistan National Broadcasting I don't think 
broadcasts anything from Voice of America. So in these areas 
distribution is really, really, really key. As I say, it's a 
robust market, but we've had a real problem over the years 
getting onto the networks, the radio stations, and the TV 
stations that people watch.
    So to the extent that you can negotiate with the Pakistan 
Government, I know that would be helpful.
    Ambassador Holbrooke. Well, I totally agree with that. I 
would, however, say that in the end the fight--the information 
war is what this fight is all about--when they kill people, 
suicide bombings and so on, it isn't for the actual event. It's 
for their view of its value. I think they've misjudged the 
Pakistani people, incidentally. But that is the problem, and to 
deal with it you need local voices.
    When we were in Swat a few days ago, Senator, and we met 
with the leaders, every single person said that radio was the 
vehicle through which Faisullah had terrorized Swat. It was 
right out of the history books on Rwanda 1994. He would 
broadcast the names of people he's going to behead, the next 
day he would terrorize the population. That it seems to me is 
exhibit A for the importance of this issue.
    But once again, nothing on it was being done on this a year 
ago. So it's a work in progress. Admiral Mullen and I went out 
there. He put into place Admiral Smith. We got David Ensor.
    But I would just say that I think the backlash against the 
excesses of a person like Faisullah are going to end up taking 
them down. It's just going to be a very painful struggle. If we 
leave the airwaves uncontested--and by ``airwaves,'' you start 
with radio in those areas--the price will be enormous.
    Senator Kaufman. I couldn't agree with you more. The other 
example is Serbia, where Milosevic did exactly the same thing, 
and we won the battle of airwaves there. At the end of that, 
when the people were on the streets, you know how effective 
Radio Free Europe-Radio Liberty was.
    Ambassador Holbrooke. We were able to broadcast from the 
air through Commander Solo and other factors. That technology 
is not--it's there, but we can't use it as easily in Pakistan. 
In Afghanistan we don't need it. We can broadcast from other 
places.
    Senator Kaufman. In Afghanistan we have great 
listenerships. I was just saying, in Pakistan we don't need 
Commander Solo. The problem is because they have a robust 
media; what we have to do is make sure that our message gets 
onto the local affiliates that people listen to, radio and 
television stations that the people use and listen to. And we 
can do that, and I think it's a government to government. The 
only reason they're going to let us on there is because you 
talk to President Zardari and he says OK.
    Senator Lugar. Thank you very much, Senator, and thank you 
for your patience in waiting to the end to ask very important 
questions.
    Senator Kaufman. It's a thing you learn when you're a 
junior.
    Senator Lugar. We especially thank Ambassador Holbrooke and 
Minister Miliband, and we thank the members of his staff for 
coming today and being a part of this hearing. We appreciate 
the very large public response. As you have noticed during the 
last 2\1/2\ hours, a great number of persons have come because 
they feel this is important, just as we do.
    So we thank all of you for this investment of time, and we 
will do our best to use this information.
    Thank you very much.
    [Whereupon, at 5:29 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


  Responses of Ambassador Richard Holbrooke to Questions Submitted by 
                        Senator Richard G. Lugar

                       international coordination
    Despite the series of conferences since Bonn in 2001, no clear 
institutional framework for Afghanistan's nation-building and 
reconstruction has emerged. Despite international consensus and 
goodwill the United Nations has yet to play a strategic coordinating 
role in Afghanistan. UNAMA challenges continue since the election 
debacle and the extension of parliamentary elections by at least 4 
months as well as the near term departure of Kai Eide. Overlapping 
mandates, competitive relations, and minimal accountability for 
performance have hampered and diminished positive impact of 
international partners.

    Question. Past conferences have delivered vague and unrealized 
commitments and merely plans to build frameworks for cooperation. How 
will the London Conference differ?

    Answer. The London Conference on Afghanistan focused on supporting 
the Government of Afghanistan's leadership in key areas, including 
development planning. The Government of Afghanistan has developed an 
interagency process of ministry ``clusters'' to set priorities and 
guide donor assistance. The U.N. Assistance Mission in Afghanistan 
(UNAMA) is supporting these efforts, including by revitalizing the 
Joint Coordination and Monitoring Board (JCMB) as a venue for 
coordination between the ministry clusters and donors. Building a 
cooperative framework with the Government of Afghanistan at its center, 
supported by UNAMA and others, is more robust and sustainable than 
previous coordination efforts.

    Question. What specific policies or actions has or will the 
Government of Afghanistan taken that implement President Karzai's 
rhetoric of reform at his inauguration?

    Answer. The Afghan Government's most significant anticorruption 
achievements in the past 18 months have been the creation of: (1) the 
Major-Crimes Task Force, a multiministry initiative responsible for 
investigating corruption, kidnapping, and organized crime cases and 
preparing them for prosecution; (2) an Anti-Corruption Unit of 
prosecutors within the Attorney General's Office; and (3) an Anti-
Corruption Tribunal of specially vetted judges to oversee high-profile 
cases. Additionally, the Afghan Government recently announced that the 
Cabinet has approved a bill that will enable the prosecution and trial 
of government ministers and judges. This action will take away a 
rationale occasionally cited by prosecutors for not pursuing 
ministerial-level corruption cases. We support all of these initiatives 
and continue to raise corruption issues in our discussions with Afghan 
officials.

    Question. What specific framework will the international community 
now use and how does it integrate with the Afghan Government in Kabul 
and in the provinces?

    Answer. The United States has led a concerted effort to strengthen 
international coordination through existing and new mechanisms. In 
Washington, the office of the Special Representative chairs monthly 
meetings of the SRAP Washington Liaison Group of the more than 30 
countries who have appointed Special Representatives for Afghanistan 
and Pakistan to share U.S. views on Afghanistan and Pakistan. German 
Special Representative Steiner has assumed the chair of quarterly 
international meetings of Special Representatives, in which Ambassador 
Holbrooke participates.
    In Kabul, coordination among leading international 
representatives--UNSRSG Staffan de Mistura, NATO Senior Civilian 
Representative Mark Sedwill, and EU Special Representative Vygaudas 
Usackas--has grown stronger. Donor and political representatives in 
Kabul meet frequently and informally to share information on projects 
and programs. Kabul's primary formal coordination mechanism is the 
Joint Coordination and Monitoring Board (JCMB), which is chaired by the 
Afghan Minister of Finance and the Special Representative of the U.N. 
Secretary General. The JCMB is the central platform for strategic 
coordination, joint policy formulation, problem-solving, and mutual 
accountability between the Afghan Government and the international 
community. It also ensures consistency with the Afghan National 
Development Strategy. The JCMB includes 7 members of the Afghan 
Government and 21 representatives of the international community. The 
Afghan Government has used the London conference to lay out its 
priorities for development assistance and to take responsibility for 
donor coordination. It is being supported by UNAMA and by other donors, 
including by our advisers in the ministries.

    Question. What sectors will relief efforts focus on?

    Answer. Relief efforts will focus on the areas most critical to 
promoting stability. Achieving this objective will require a 
multifaceted approach that:

  <bullet> Establishes human security through credible systems of 
        justice and law enforcement, as well as a path toward 
        reintegration and reconciliation, all the while respecting 
        human rights especially those of women and children;
  <bullet> Increases licit economic opportunity through agriculture, 
        entrepreneurship, and responsible natural resource extraction;
  <bullet> Enables economic activity through transportation 
        infrastructure, affordable energy, and progressive trade and 
        commerce regimes;
  <bullet> Fosters governance and sovereignty through independent 
        revenue generation, a capable civil service, and means to 
        discourage corruption; and
  <bullet> Improves education and public health.

    Question. How will responsibilities/efforts be divided among 
various donors in critical sectors?

    Answer. The Government of Afghanistan is assuming greater 
responsibility for donor coordination, including by setting priorities 
and cochairing the JCMB and its standing committees. It is also seeking 
to improve financial management so that a greater percentage of donor 
assistance can be channeled through budget mechanisms, such as the 
Afghanistan Reconstruction Trust Fund (ARTF). Contributions made 
through budgetary mechanisms allow for clear divisions of international 
efforts, while leaving responsibility with the Government of 
Afghanistan.

    Question. What benchmarks will be used to measure progress in each 
sector?

    Answer. The Afghanistan Pakistan Regional Stabilization Strategy, 
issued by Secretary Clinton and endorsed by Secretary Gates, outlines 
milestones for evaluating the progress of USG programs in each sector. 
Additionally, the National Security Staff has organized and implemented 
a comprehensive system of metrics for tracing the results of our 
implementation efforts.

    Question. Who or what entity will lead on general economic 
reconstruction for Afghanistan and from what organization and location?

    Answer. The Government of the Islamic Republic of Afghanistan 
(GIROA) is in the lead for general economic reconstruction in 
Afghanistan, with support from USAID, the World Bank, the Asian 
Development Bank, and other international partners. The primary 
planning document for addressing Afghan development needs is the 
Afghanistan National Development Strategy (ANDS). In order to focus 
implementation of the ANDS and improve coherence amongst various line 
ministries, the GIROA established clusters grouping relevant ministries 
under a senior ministry. The Ministry of Mines is in charge of the 
Economic and Infrastructure Development Cluster, which oversees 
economic reconstruction efforts by the Ministries of Transport and 
Civil Aviation, Public Works, Energy and Water, Commerce and Industry, 
Communication and IT, and Urban Development.
    At the same time, the clustered ministries will continue to 
intersect with the Joint Coordination and Monitoring Board (JCMB), a 
multistakeholder, international coordination body officially tasked 
with overseeing ANDS implementation (the JCMB includes both Afghan 
Government officials and major international donors). The Office of 
Coordinating Director for Development and Economic Assistance at the 
U.S. Embassy in Kabul will remain a central point for harmonizing and 
prioritizing U.S. development activity.

    Question. Will the recent meetings of Friends of Pakistan group 
recognize and associate progress in the one country as essential to the 
other? Do the Friends, and Pakistan, concur that progress in one 
strengthens progress in the other?

    Answer. The Friends of Democratic Pakistan (FODP) was launched in 
September 2008 to galvanize international support behind the new 
democratically elected Government of Pakistan. The FODP has since 
developed into a policy and donor coordination mechanism for countries 
to work together and with government institutions to address challenges 
like post-conflict reconstruction in the Malakand division of Khyber-
Pakhtunkhwa or Pakistans energy crisis. The United Nations has played a 
key role in organizing FODP activities in Islamabad.
    While the FODP itself is focused only on Pakistan, all 26 
participants in the Group of Friends also are deeply engaged in 
Afghanistan and other regional fora, including as coalition partners or 
as members of the Special Representatives Contact Group. These partners 
understand that the futures of Afghanistan and Pakistan are 
interconnected but also recognize that each country faces a unique set 
of challenges that must be addressed individually. Thus, international 
coordination efforts in Pakistan reinforce international efforts in 
Afghanistan while addressing the core needs of the people of Pakistan.
                            chain of command
    There are innovative structures for organization of our Embassies 
in Afghanistan and Pakistan, incorporating former ambassadors and 
senior diplomats, in order to deliver more comprehensive and responsive 
foreign assistance to achieve United States goals. These structures are 
relatively unclear in their organization and purpose.

    Question. How have these structures improved the management and 
delivery of U.S. assistance to date? How are they intended to achieve 
better results than in the past?

    Answer. The new structure, particularly the creation of the 
Coordinating Directorate for Development and Economic Assistance 
(CDDEA), has better linked civilian efforts with military efforts to 
achieve the administration's goals in Afghanistan. The CDDEA, under the 
direction of Ambassador Eikenberry, has supervisory responsibility to 
ensure that all interagency and economic development programs are fully 
integrated and working in sync. The CDDEA oversees the work of 14 
sections and agencies at the Embassy. These include the economic and 
development agencies USAID, USDA, Treasury, FAA, Transportation and the 
State Department economic section. It also oversees a subgroup of 
entities consisting of the development and assistance portions of the 
rule of law section and law enforcement agencies, including Justice, 
DEA, FBI, Marshals Service, DHS, and INL. The Afghanistan-Pakistan 
border coordinator and the Interagency Provincial Affairs (IPA) office 
also report to CDDEA. CDDEA has succeeded in increasing coordination, 
reducing stove-piping, and better assuring that development supports 
U.S. foreign policy and a ``whole of government'' approach.
    Outside of Kabul, the Embassy has created five senior civilian 
representatives (SCRs), matching the five regional ISAF commands. Below 
them are civilian representatives at the task force, provincial, and 
district levels which report up to the SCRs who in turn report to the 
Embassy. Additionally, the Ambassador, the Deputy Ambassador, the 
Assistant Chief of Mission, the CDDEA and a new rule of law Ambassador 
oversee 14 working groups, each focusing on a specific policy goal.

    Question. While expanding our military presence in Afghanistan and 
our training and equipping efforts in Pakistan we are also providing 
significant additional foreign assistance to improve the civilian 
partner effort of a civil-military equation. What integrating mechanism 
exists and what military personnel are incorporated in the civilian 
planning and implementation of our strategy in Afghanistan and 
Pakistan?

    Answer. In Afghanistan, the U.S. Embassy and ISAF are implementing 
a fully integrated civilian-military strategy. The strategy was 
developed by a joint civ-mil team consisting of U.S. Forces-Afghanistan 
and Embassy Kabul personnel. Lines of effort and operation are 
coordinated at every level--from the top in Kabul to the regional 
commands to provincial reconstruction teams (PRTs) to district support 
teams (DSTs) on the front lines of the war effort. For instance, our 
whole of government agriculture program includes USAID-administered 
programs that are increasingly implemented through the Afghan 
Government at the subnational level. These programs and capacity-
building are facilitated by USAID and USDA advisers deployed to PRTs 
and DSTs in the field, which include military and civilian personnel. 
These civilian personnel also work closely with the National Guard's 
Agribusiness Development Teams (ADTs). Similarly, our whole of 
government counternarcotics strategy brings to bear the expertise of 
DEA civilian personnel, law enforcement, financial intelligence experts 
(both civilian and military), and international military forces focused 
on interdiction of illicit items including heroin and precursor 
chemicals.
    In Pakistan, our overall goal is to build the capacity of the 
Pakistani civilian government to be able to provide for the needs of 
the Pakistani people. By building capacity and helping Pakistan address 
its immediate energy, water, and related economic crises, we will help 
put Pakistan on a path toward sustainable job creation and economic 
growth, which is necessary for long-term Pakistani stability. This 
mission is especially challenging in the conflict-affected areas of 
Pakistan, where the security situation fluctuates greatly from place to 
place and day to day, but remains of utmost importance. We realize that 
humanitarian and stabilization assistance must go hand-in-hand with 
longer term capacity-building of Pakistani entities, such as the FATA 
Secretariat; without both we will not be able to hold cleared areas and 
start the process toward sustainable, civilian-led service delivery.
    While we prioritize working through civilian entities where 
possible, there are also windows of opportunity to provide community 
stabilization and humanitarian assistance via the U.S. military, who 
can reach insecure areas where civilians do not have access. Through 
several programs, we are building the capability of the Pakistani 
security forces to provide post combat/conflict humanitarian relief. We 
also frequently discuss with Pakistani security forces the importance 
of integrating civilian personnel in their counterinsurgency planning, 
and helping civilian personnel access insecure areas. The Pakistani 
security forces have demonstrated their understanding of the important 
role the civilian government plays in long-term development, and have 
begun to better coordinate with the Political Agent, the FATA 
Secretariat, USAID, State Department personnel, and Department of 
Defense personnel to provide security and access to civilian personnel.
    More broadly, Ambassador Holbrooke and General Petraeus have 
cohosted a series of intensive, day-long civ-mil coordination sessions 
to review all civ-mil plans for Afghanistan and Pakistan. These 
sessions featured joint presentations by civilian and military 
officials in charge of implementing programs on the ground in both 
countries.

    Question. To whom does the Special Representative for Afghanistan 
and Pakistan report?

    Answer. The Special Representative for Afghanistan and Pakistan 
reports to the President of the United States through the Secretary of 
State. He is a standing member of all senior-level Afghanistan and 
Pakistan policy bodies, including the National Security Council, the 
Principals Committee, and the Deputies Committee.

    Question. To whom do the U.S. Ambassador for Pakistan and 
Ambassador for Afghanistan report?

    Answer. The U.S. Ambassadors to Pakistan and Afghanistan report to 
the President of the United States through the Secretary of State and 
the Special Representative for Afghanistan and Pakistan. The reporting 
chain to the President through the Secretary of State is clearly 
established in Presidential guidance issued to each U.S. Ambassador 
posted across the globe.

    Question. To whom do the USAID Mission Director for Afghanistan and 
the USAID Mission Director for Pakistan report?

    Answer. The USAID Mission Directors in both Embassies report to the 
Chief of Mission, through the respective U.S. Coordinators and Deputy 
Chiefs of Mission.

    Question. To whom do the Coordinating Director for Development and 
Economic Affairs in Afghanistan and the U.S. Coordinator for Economic 
and Development Assistance in Pakistan report?

    Answer. The Coordinating Directors for Development and Economic 
Affairs in both countries report to the Chief of Mission, through the 
respective Deputy Chief of Mission.

    Question. What steps have been taken by the State Department to 
properly organize to meet the criteria for assumption of the Pakistan 
Counter-Insurgency Capabilities Fund authority (PCCF)?

    Answer. We are continuing to develop our oversight and management 
procedures for PCCF to preserve the flexibility and agility needed to 
support the requirements in the field. Both State and DOD are committed 
to the successful implementation of PCCF as a State Department-managed 
program in FY 2011,with the goal being a seamless transition of the 
program. A major difference in the management of PCCF will be increased 
State Department oversight and involvement throughout the execution 
process, which will ensure that this major assistance program aligns 
with our broader foreign policy objectives in Pakistan. DOD will 
continue to be the primary program implementer. We are currently 
engaged in discussions with DOD over how best to manage PCCF so that it 
preserves the flexibility and agility needed to support requirements in 
the field.

    Question. When do you expect State to assume responsibilities for 
administering the PCCF?

    Answer. In line with the agreement between Secretary Gates and 
Secretary Clinton, conveyed in their May 2009 joint testimony before 
the Senate Appropriations Committee, PCF was to be provided to DOD in 
FY 2009, to State in FY 2010, but with a direct pass through of funds 
to DOD, and in FY 2011, to be a fully State-managed program.
     office of the special representative (srap) and country team 
                              coordination
    One of the challenges I have long sought to improve in our policy 
development has been the voice of the Ambassador and Country Team in 
Washington policy determinations. Theirs is a critical, operational, 
and local perspective that must inform our policies. I understand you 
have assembled a fine 40-person team in Washington, in the Office of 
the Special Representative.

    Question. What mechanisms are in place or planned to integrate 
field perspectives in decisions regarding Afghanistan and regarding 
Pakistan?

    Answer. Both Chiefs of Mission participate via video teleconference 
in all NSC meetings, Principals Committee meetings, and Deputies 
Committee meetings on Afghanistan and Pakistan. The Special 
Representative, key members of the Special Representative's office, and 
the country desks are in frequent communication with the ambassadors 
and country teams in Afghanistan and Pakistan. Field views are sought 
on all key policy issues. Expert teams in Washington and the field 
collaborate closely on policy development.

    Question. It is no surprise that there are tensions between HQ and 
the field, as they are evident in most situations. How are you dealing 
with these, apparently strong, concerns from the field in Afghanistan 
as well as Pakistan?

    Answer. Maximizing communications, including through regular face-
to-face video teleconferences and visits, helps to manage tensions that 
arise from the devotion, in the field and in Washington, to the success 
of the President's strategy and the obvious challenges to our efforts. 
In addition to frequent informal and formal engagements at lower 
levels, the weekly Deputies Committee process, which includes 
Ambassadors in Kabul and Pakistan by secure video teleconference, 
provide regular, frequent opportunities for frank exchanges of views, 
complemented by monthly Principals and National Security Council 
meetings--all of which include participation from ambassadors in the 
field.

    Question. How are you ensuring Washington supports the Country Team 
and that your hard-working staff is maintaining close and collaborative 
working relationships with the field?

    Answer. As is the case with any Embassy, Washington-based personnel 
are in frequent and close contact with their field counterparts. They 
participate in a variety of regular video-teleconferences and 
teleconferences and exchange daily communications via phone, e-mail, 
and front channel cables. Washington-based experts also travel 
frequently to the field to support Country Team implementation efforts.

    Question. How does the SRAP office coordinate with the SCA Bureau 
and U.S. Embassy Country Teams in India and Central Asian countries?

    Answer. The Special Representative's senior deputy is dual-hatted 
as the Deputy Special Representative for Afghanistan and Pakistan and 
the Deputy Assistant Secretary (DAS) of State for South-Central Asian 
Affairs in charge of Afghanistan and Pakistan. In this way, the DAS 
reports both to the Special Representative and the Assistant Secretary 
of State for South-Central Asian Affairs. The Afghanistan and Pakistan 
desks located in the SCA Bureau report to the DAS for Afghanistan and 
Pakistan. The Central Asia Desk reports to the DAS for Central Asian 
Affairs. The SRAP office coordinates with the Country Teams in India 
and Central Asia like any other office in the State Department--through 
the country desks, SCA Bureau front office, and through official 
communications with Chiefs of Missions, as appropriate.

    Question. The creation of the Office of the Coordinator for 
Reconstruction and Development (S/CRS), responsible for the 
organization and deployment of civilian government personnel to 
conflict areas and as partners for our military is a long developing 
and encouraging development.

  <bullet> How has the SRAP office helped to improve the utility of the 
        Office of the Coordinator for Stabilization and Reconstruction 
        at the State Department?

    Answer. The SRAP office's primary mission is to support development 
and implementation of the administration's Afghanistan and Pakistan 
policy. In the course of regular business, S/SRAP and S/SCRS have 
worked closely on several AfPak policy issues. SRAP has encouraged S/
CRS contributions to the Afghanistan and Pakistan effort, and been very 
satisfied with them, in a number of important ways, including: 
deploying a long-term, senior-led team to Kabul to support the 2009 
Presidential elections; deploying civ-mil planners to Kabul to support 
development of the integrated civ-mil campaign plan; and deploying 
civilian experts to Kabul to support the Embassy's new civ-mil 
communications efforts. We will continue to rely on S/CRS and the 
Civilian Response Corps to support crucial functions in the Afghan 
mission.

    Question. Is SRAP making appropriate use of S/CRS resources and 
expertise? How will it do so going forward?

    Answer. SRAP frequently sought the resources and expertise in S/
CRS. A close working relationship to identify how best S/CRS can 
contribute has resulted in a number of vital S/CRS deployments in 
Afghanistan, including those listed above. We will continue to rely on 
S/CRS and the Civilian Response Corps to support crucial functions in 
the Afghan mission. More broadly, we will remain in close contact with 
S/CRS to ensure the best appropriate use of its resources, which will 
contribute to the effort in Afghanistan as well as the further 
development of S/CRS.

    Question. Given the clear necessity in Afghanistan and Pakistan of 
a civilian response capacity, how has the SRAP office worked to 
strengthen the nascent S/CRS component Civilian Response Corps (CRC) 
which is standing up to build our civilian response capacity?

    Answer. SRAP supports S/CRS and the CRC, as demonstrated by the 
various critical targeted activities that they have undertaken on 
behalf of the Afghan mission. We will also continue to rely on this 
important civilian capacity in the future. We are also sharing lessons 
learned from our oversight of the increase in civilian staffing with S/
CRS in an effort to assist them in the standup of the CRC. Individuals 
who participate in the civilian increase are also made aware of the CRC 
and given the opportunity to add their name to the standby component 
roles. In several instances, S/CRS has helped identify personnel to 
fill positions with specialized skills.

    Question. Has the rapid deployment of civilians over the last year, 
completely depleted the ready pool of potential civilians? What are the 
most significant obstacles to identifying, preparing, and deploying 
civilians to Afghanistan and Pakistan?

    Answer. The rapid deployment of civilians over the last year has 
not depleted the pool of potential civilians. The State Department's 
Bureau of Human Resources closely tracks staffing needs in the Iraq, 
Pakistan, and Afghanistan. Its current assessment is that the proposed 
staffing levels for Afghanistan and Pakistan, both Foreign Service and 
temporary direct hires, are sustainable. The most significant obstacle 
to deploying civilians to Pakistan and Afghanistan is matching employee 
specific skill sets to job requirements. Another significant concern is 
maintaining continuity and limiting staffing gaps. We are encouraging 
employees to volunteer for longer than the established 1-year tour, and 
exploring options to leverage area and job expertise by establishing 
hybrid tours; e.g., a year on the country desk followed by a year in 
country, or an 18-month tour in country followed by a 6-month stint as 
a trainer.
        afghanistan and pakistan regional stabilization strategy
    Question. The strategy that you introduced for rollout at the 
January 21 SFRC hearing reiterates general plans to expand U.S. 
diplomatic, economic and political efforts in those two countries. 
Considerable additional information is necessary to help inform 
Americans of our efforts to meet President Obama's goals for 2011.

  <bullet> Provide a recent benchmark for each of the milestones listed 
        in the strategy.

    Answer. We measure our progress against the milestones according to 
the explicitly or implicitly stated benchmark contained in virtually 
all of the milestones. We will report on progress against the 
milestones later this year. We provide below a few illustrative 
examples of milestones and their benchmarks:

  <bullet> ``Nearly 1,000 civilian experts deployed by early 2010'' 
        will be measured by counting the number of deployed civilians.
  <bullet> ``Significantly and rapidly expand employment opportunities 
        in the agricultural sector quarter by quarter'' is measured by 
        agriculture-related job creation.
  <bullet> ``Afghan Subnational Governance Policy approved and 
        implemented, including provision of additional resources to 
        provincial officials'' is measured by the approval of the 
        Afghan policy and provision of resources to support that 
        policy.

    Separately, the administration, through the National Security 
Staff, has organized and implemented a comprehensive system of metrics 
for tracking the results of our implementation efforts. That effort is 
designed to be much more detailed. It includes specific measures of 
progress across all USG efforts, whereas the milestones in the 
Afghanistan and Pakistan Regional Stabilization Strategy focus on 
higher level measures of progress for the civilian strategy.

    Question. How do you ensure inclusive deliberation from our Country 
Teams in this strategy formulation? How will you ensure the discussion 
within your SRAP office is informed directly by the voices of the 
respective Ambassadors, Mission Directors, Working Groups, ISAF, and 
associated staff in regional command field offices? What mechanisms 
have you established to ensure that inclusive discussion?

    Answer. The Afghanistan and Pakistan Regional Stabilization 
Strategy was reviewed and approved by the Chiefs of Mission in 
Afghanistan and Pakistan. It was also reviewed and approved by 
Secretary Clinton, Secretary Gates, USAID Administrator Shah, National 
Security Advisor General Jones, CIA Director Panetta, and other senior 
administration officials. At the experts-level, it was thoroughly 
reviewed by the 10 civilian departments and agencies involved in 
implementing our policies on the ground. It is a living document and 
will be updated to reflect the dynamic nature of events on the ground 
and major USG programs designed to implement the President's Strategy.

    Question. What is the status of the planning and implementation 
process for the strategy? Has the strategy been circulated and 
commented upon by our Country Teams and by the military? How does the 
strategy align with our military strategy? How do other nations efforts 
align with our strategy?

    Answer. The Stabilization Strategy reflects the civ-mil priorities 
of our civilian and military teams on the ground. Our civilians are 
implementing the key initiatives outlined in the strategy. As noted in 
response to a previous question, the Afghanistan and Pakistan Regional 
Stabilization Strategy was reviewed and approved by the Chiefs of 
Mission in Afghanistan and Pakistan. It was further reviewed and 
approved by Secretary Clinton, Secretary Gates, USAID Administrator 
Shah, National Security Advisor General Jones, CIA Director Panetta, 
and other senior administration officials. At the experts-level, it was 
thoroughly reviewed by the 10 civilian departments and agencies 
involved in implementing our policies on the ground.

    Question. A long and thorough review of our Afghanistan and 
Pakistan policy began in the last year of the previous administration. 
This process continued through President Obama's announcement in 
December of a new civil-military approach. These deliberative processes 
often caused delays and indecision.

  <bullet> During this now post-review operational phase, please 
        indicate what steps you will take to ensure that implementation 
        is not unduly delayed by overly long decision and approval 
        processes.

    Answer. The National Security Staff chairs weekly Deputies 
Committee meetings focused on implementation. The Principals meet at 
least once a month to discuss implementation, and the President chairs 
a monthly meeting to assess implementation. Additionally, the Secretary 
of State provides the President with weekly and monthly reports on 
implementation. The Special Representative for Afghanistan and Pakistan 
chairs and a representative of the National Security Staff cochairs a 
weekly meeting with more than 75 essential personnel involved in policy 
implementation. All of these mechanisms are aimed to ensure timely 
decisionmaking, coordination, and implementation.
    Moreover, the unique structure of the SRAP office, with 
representatives from all of the major departments and agencies 
contributing to the civilian effort, facilitates accelerated 
coordination of policy, decisionmaking, and implementation by 
eliminating stove-piping of efforts.

    Question. Indicate which USG agencies and/or officials will have 
principal responsibility for implementing each element of the strategy.

    Answer. The Secretary of State leads the overall implementation of 
the civilian effort in Afghanistan and Pakistan. Our new civilian 
strategy knocks down stovepipes and encourages integration of efforts 
between agencies along major lines of effort. This integration and the 
role of each USG agency is outlined in the Afghanistan and Pakistan 
Regional Stabilization Strategy.

    Question. Provide a notional timeline that identifies the intended 
implementation of programs by sector as well as prospective parallel 
Afghan deliverables associated with each.

    Answer. The Stabilization Strategy identifies the key initiatives 
intended to be implemented in each sector. The milestones in the 
Stabilization Strategy provide a measure of anticipated results, 
usually within a certain timeframe. Since many of these programs are 
being implemented increasingly through, or in conjunction with, the 
Afghan Government, the ultimate ``Afghan deliverable'' will be 
increased Afghan capacity to assume responsibility for efforts. This 
will take more time in some areas than others. Our ultimate goal is to 
empower the Afghan Government at all levels so that it is in the 
strongest possible position to take advantage of improved security 
facilitated through the military strategy. (NOTE: We have recently 
provided to SFRC staff 16 detailed, sector-by-sector briefings covering 
these issues in greater depth, as well as spend plans.)

    Question. What specific next steps will follow from the 
Stabilization Strategy?

  <bullet> How does this strategy specifically relate to the deployment 
        of military personnel to RC South and RC East? How does it 
        integrate with efforts in RC North, West and Central? Provide 
        an organizational chart for civilians and military in the RC 
        regions.

    Answer. As noted on page iii of the Stabilization Strategy, our 
civilian personnel ``contribute to the mission in the field, especially 
in the East and South where a majority of U.S. combat forces are 
operating and where many of the additional 30,000 forces announced by 
President Obama on December 1, 2009, will deploy.'' The strategy 
reflects the fully integrated civ-mil plan developed in the field and 
synchronized by Ambassador Holbrooke and General Petraeus.

  <bullet> What specific correlation and activities does this strategy 
        dictate for our PRT operations and those of our partner 
        nations? What changes will occur?

    Answer. As described in the section of the strategy titled 
``Deploying Additional Civilian Expertise,'' a priority of the civilian 
surge has been to increase civilian expertise in the field, including 
at Provincial Reconstruction Teams (PRTs), District Support Teams 
(DSTs), and other platforms. The position of the NATO Senior Civilian 
Representative has been established to ensure improved civilian unity 
of effort between our ISAF allies and partners. The priorities 
identified in the Stabilization Strategy reflect broad priorities 
agreed at the London Conference and will inform donors' priorities and 
efforts. Among these, there will be an increased focus on support for 
improved subnational governance and rebuilding Afghanistan's 
agriculture sector, especially in the East and South.

    Question. The establishment of U.S. Consulates in Afghanistan and 
the transition from Provincial Reconstruction Teams provides additional 
opportunities for the stationing of civilians further afield in order 
to sustain U.S. efforts in partnership with Afghans. Please provide a 
description or map of the location and number of USG civilians in 
Afghanistan.

  <bullet> Please describe their purpose and their home agency 
        affiliation and identify their Afghan institutional 
        counterpart--i.e., Federal Ministry/Provincial Governor/
        District Council.

    Answer. There are more than 1,050 USG civilian personnel deployed 
to Afghanistan, with more than 300 deployed alongside our military 
personnel on the front lines. The specific locations of USG civilian 
and military personnel on the ground is sensitive for security reasons. 
The mix of civilian experts in each location varies over time to 
accommodate changes in the local environment and to address the 
evolving needs of an area. For example, civilian DEA personnel 
routinely rotate between the field and Kabul, depending on their 
mission. Generally, most civ-mil platforms have at least one State 
officer and one USAID officer, and frequently more than that.

    Question. Your testimony and the Stabilization Strategy document 
describe the intent to channel significantly more USG resources through 
host government entities in an attempt to improve their functional 
capacity and to reduce overhead costs lost through other methods. The 
United States has limited information on the internal operations of 
government ministries in Pakistan and Afghanistan and what it does have 
raises real and obvious concerns for oversight.

  <bullet> Please provide a specific description of how the United 
        States plans to work with Pakistan to channel assistance, as 
        has been described, through government entities. Please use the 
        education sector as an example to describe the planning, 
        distribution, monitoring, and evaluation mechanisms that will 
        safeguard U.S. resources.

    Answer. We have taken significant steps to encourage long-term 
Pakistani ownership of development programs through expanded direct 
financing of the Government of Pakistan's budgets or internal project 
planning processes. Doing so ensures that our assistance builds 
capacity within the Government of Pakistan to continue to provide for 
the Pakistani people. USAID, leading the implementation of this 
strategy, is adopting best practices to foster better management and 
administrative capacity-building of Pakistani institutions, including 
through counterpart contributions by recipients of USG funding, 
requirements that recipients budget for future costs (e.g., building 
maintenance) associated with USG-funded projects, and community 
participation. In FY 2010 we anticipate providing approximately 50 
percent of assistance through federal and provincial agencies.
    In education specifically, we are investing in programs that have a 
track-record of results in Pakistan. In basic education, our programs 
are increasing enrollment and improving the quality of education by 
providing stipends to families to encourage school attendance, 
especially for girls; refurbishing and improving facilities of existing 
schools; and continuing to improve teacher training programs. This 
funding will be provided directly to provincial agencies in Sindh, 
Balochistan, Punjab and KPk through fixed amount reimbursable 
agreements and other direct assistance mechanisms.
    We have also teamed up with the United Kingdom-Pakistan Education 
Task Force to press for structural reforms, tailored by province, that 
are essential to bring momentum to the basic education sector.
    In higher education, the majority of assistance is provided through 
direct support to the Higher Education Commission (HEC). USAID has 
audited HEC and certified it for direct funding based on the 
determination that HEC's procurement operations and financial controls 
meet our accountability standards. A USAID program officer has been 
assigned to provide technical oversight and there is routine 
interaction between USAID and HEC on planning and implementation of our 
activities. Additional oversight is provided through international 
technical specialists contracted through the mission for HEC, Pakistani 
universities and entities that support higher education.
    Direct assistance to HEC supports: 800 in-country scholarships, 100 
professional exchanges, linkages between 10 Pakistan and U.S. 
universities, and establishment of Career Development Systems and 
Centers. Scholarships are 4-year undergraduate and 2-year graduate 
level awards in the fields of agriculture and business administration 
at Pakistan universities. Scholarships cover all expenses associated 
with study, including tuition, fees, books and materials, lodging, and 
stipends. A monitoring and evaluation process, overseen by the USAID 
technical officer, is in place to validate these results.
    USAID is also supporting HEC policy reform and institutional 
capacity-building by providing technical assistance in the financial 
aid and institutional development areas. We are supporting the 
establishment of viable financial aid development offices at 11 
universities to further strengthen the transparency and monitoring of 
scholarships. These offices assist in managing scholarship funds and in 
raising funds through providing skills for establishing public-private 
partnerships toward university development.

    Question. Please provide a specific description of how the United 
States plans to work with Afghanistan to channel assistance, as has 
been described, through government entities. Please use the health 
sector as an example to describe the planning, distribution, 
monitoring, and evaluation mechanisms that will safeguard U.S. 
resources.

    Answer. The following describes how we will channel assistance 
through the Government of Afghanistan in the health sector:

  <bullet>  Capacity-Building--Since May 2003, USAID has provided 
        technical assistance to the MOPH through the USAID Afghanistan 
        Rural Expansion of Afghanistan Community Based Health Care 
        (REACH). This longstanding capacity building has strengthened 
        the Ministry's procurement, project management and financial 
        management capabilities.
  <bullet> Certification and Assessment--Before a project may utilize 
        host country contracting, the Mission Director must certify 
        that the procurement operations and financial controls within 
        the relevant Ministry are sufficient to carry out the 
        procurement actions, from solicitation to audit and closeout, 
        in accordance with USAID standards and procedures. Over the 
        past year, the Mission Contracting, Financial and Legal offices 
        have conducted multiple assessments of the procurement and 
        financial procedures, practices, capacities and controls in the 
        MOPH Grants and Contracts Management Unit (GCMU). These 
        assessments resulted in reports concluding that the GCMU is 
        equipped and capable of managing procurements in accordance 
        with USAID requirements. The Mission Director certified that 
        the Ministry has sufficient procurement and financial 
        management capabilities to carry out the procurement actions in 
        accordance with USAID procedures.
  <bullet> Approval of Contracting Actions--All key contracting actions 
        (including the notice to FedBizOpps, solicitation, prequalified 
        offerors (if any), selection method, award decision, 
        administration actions and contract modifications) must be 
        approved by the USAID mission. This enables the mission to 
        observe and mentor the host-country procurement staff while 
        safeguarding the U.S. funds.
  <bullet> Advance and Liquidation Mode of Payment--The payment 
        mechanism will be monthly cash advances and liquidations. 
        Advances shall be limited to the minimum amounts needed to meet 
        current disbursement needs (generally 30 days) and shall be 
        scheduled so that the funds are available to the Ministry as 
        close as is administratively feasible to the actual 
        disbursements for program costs. The Mission Office of 
        Financial Management (OFM) is providing training to the GCMU on 
        the process. Full supporting documentation for the advance and 
        liquidation requests will be required by OFM for the first 
        three months and subsequently if needed. Financial reviews will 
        be conducted by OFM on a periodic basis.
  <bullet> Auditing and Reporting--If total of all funds given to the 
        Afghan Government during its fiscal year exceeds $300,000, it 
        will be subject to an independent third party financial audit 
        conducted by one of the regional audit firms approved by the 
        USAID Inspector General. We envision audits for the first 
        several years conducted under an Agency Contracted Audit with 
        significant participation from the Afghan Auditor General and 
        Ministry of Finance. Any subcontracts with local and/or foreign 
        organizations expending at least $300,000 in its fiscal year 
        will be audited according to USAID Recipient-Contracted Audit 
        Guidelines. U.S. organizations expending over $500,000 would be 
        subject to OMB Circular A-133 audit requirements.
  <bullet> Technical Monitoring--USAID has also assigned an officer 
        with relevant technical expertise to monitor the performance of 
        the procurement and projects, and to provide technical 
        direction to the Ministry. The USAID technical officer and the 
        Ministry will work together to implement a performance 
        monitoring and reporting process, to include monthly and 6-
        month progress reports. The technical officer will work with 
        the Ministry to conduct technical oversight and ensure that the 
        required work is being performed, the results evaluated and 
        objectives achieved.
  <bullet> Corrective Actions--In the event that a problem arises 
        within the GCMU, USAID would work with the host Government to 
        evaluate training needs, policy changes or other steps required 
        to resolve the issue. In the event that performance or cost 
        problems arise with a host-country contract, appropriate action 
        could include noncontractual remedies (such as expediting 
        commodities through customs) or contractual actions (such as 
        change order or modification, disallowance of costs, or 
        termination of the contract). The host-country contract will 
        include standard provisions on procedures for any disputes and 
        appeals arising from the contract. Throughout the process, all 
        mission financial approvals and audits, contracting approvals 
        and technical reports and approvals will be documented.
  <bullet> Continued Support--Additional support continues to be 
        provided to the GCMU through the USAID/MSH project to help it 
        comply with all USAID requirements and ensure that management 
        and oversight functions continue to be strengthened. USAID 
        through MSH will support GCMU by adding three senior Afghan and 
        one International staff members to the current team of 16 
        Afghan and 1 International staff members. The expected outcome 
        of this additional support will be a GCMU that is fully 
        integrated in terms of the management systems and tools used to 
        supervise grants and contracts, financial management and 
        oversight, and field monitoring and evaluation.
  <bullet> Ongoing Training--The mission through Regional Inspector 
        General (RIG) has provided the Fraud Awareness Training to 
        MOPH/GCMU staff. It has also provided training on Recipient 
        Contracted Audits.

    Question. Please describe the challenges that remain and compare 
the new methods with past delivery practices in those sectors using 
specific examples.

    Answer. Challenges to Direct Assistance:
    Security situation: Security concerns will continue to 
significantly limit the ability of USG personnel to access areas where 
operations continue. In order to achieve our goals in Afghanistan and 
the conflict-affected areas of Pakistan, we will continue to rely on 
flexible and innovative funding and accountability mechanisms that 
enable U.S. and Pakistani personnel, both civilian and military, to 
quickly react and provide humanitarian and stabilization assistance to 
hold cleared areas as the Pakistani military makes progress in their 
fight against terrorism.
    For example, USAID's Office of Transition Initiatives continues to 
help expand the reach of provincial governments in the South and East 
of Afghanistan and FATA and KPk in Pakistan to provide basic services 
to the local populations. USAID is also providing assistance directly 
to the FATA and KPk Secretariats to implement reconstruction projects 
(e.g., roads, electricity, housing) and build capacity simultaneously. 
We are also pursuing innovative ways to oversee U.S. assistance in 
insecure areas, such as monitoring and evaluation by locally employed 
staff (LES) and independent CPA or engineering firms that can reach 
areas inaccessible to U.S. personnel.
    Institutional capacity: Many of our new implementing partners--
particularly local government authorities and indigenous civil society 
organizations have management capacity issues that will require USAID 
to provide significant institutional strengthening and collaborative 
oversight. Potential areas of institutional vulnerability include 
budget and procurement systems, internal controls, accounting, and 
institutional policies. Our missions have begun working directly with 
public and private partners to enhance project management, oversight 
and evaluation.
    These local partnerships are essential in providing proper 
monitoring and evaluation because they facilitate site visits to 
insecure areas. In Pakistan, these new partnerships include a range of 
contracts to strengthen the Auditor General of Pakistan (the Government 
of Pakistan's Supreme Audit Institution) and build the audit and 
financial accounting capacity of local civil society organizations and 
private sector firms. The OIG has also established a working 
relationship with the National Accountability Bureau, the Government of 
Pakistan agency with the legal mandate to address public corruption.
    In Afghanistan, specifically in the health sector, a new method of 
service delivery in Afghanistan is Host Country Contracting (HCC). In 
July 2009, the U.S. Government and Afghan Government entered into the 
country's first HCC which directly transfers large amounts of U.S. 
Government funding into the Ministry of Public Health. Having built the 
ministry's capacity for several years, the Ministry of Public Health is 
the only ministry which can now receive large transfers of U.S. funds 
for implementing critical governmental services--the delivery of basic 
health care to the citizens of Afghanistan. This contract is valued at 
$236m over a 5-year period. This new method affords a shared 
responsibility with the Ministry of Public Health to award and manage 
the NGO contracts to deliver health services. USAID has provided 
capacity building and system strengthening to the Ministry of Public 
Health since 2002 and is confident in the Ministry's ability to manage 
the funding and contracts.
    Large number of new partnerships: As we shift our funds to 
increasingly build local capacity, our partnerships will grow, which 
will require considerable capacity-building in the area of public 
fiscal management. USAID performs preaward assessments for all new 
prospective partner organizations to ensure that our new local partners 
have an appropriate level of accountability and capacity to absorb USG 
funds.

    Question. Describe the status of the traditional justice system in 
Afghanistan and the status and relation to its formal counterpart.

  <bullet> What programs are established or planned in the near term, 
        in what provinces, to strengthen traditional justice sector?

    Answer. Justice mechanisms in Afghanistan essentially fall into 
three categories: ``formal justice,'' (i.e., police, prosecutors and 
courts); ``informal'' or ``traditional justice,'' by which traditional 
dispute resolution mechanisms are encouraged to reemerge at the local 
level (e.g., through Shuras); and ``Taliban justice.'' A key priority 
of our new rule of law (ROL) strategy is improving Afghans' access to 
reliable, efficient, and transparent dispute resolution.
    This is especially critical in areas where the Taliban's swift but 
brutal form of justice has ``outperformed'' the Afghan Government's 
more limited formal justice structure. As we evaluate how to best 
improve Afghan capacity to deliver legitimate and effective formal 
systems, we are supporting targeted informal justice programs in areas 
where the Afghan Government lacks a strong presence. Protection of 
women's rights under the Afghan Constitution and ensuring women's 
access to justice are also priorities.
    In the traditional sector, our ``clear-to-hold'' approach refers to 
focusing first on eliminating Taliban influence in the justice sector, 
improving access to traditional and state justice systems, and reducing 
official corruption and removing corrupt officials. This sequence also 
applies to geographic priorities, as determined by prevailing security 
conditions. In the first year, greater emphasis will be placed on 
districts in the South and East that were controlled by insurgents or 
narcotraffickers. In these ``priority'' districts, the Afghan 
Government lacks credibility with a population that has lost (or never 
had) confidence in formal government. Increasing security and providing 
space for traditional dispute resolution mechanisms to reemerge is the 
top priority.
    This will be done in close consultation with and through Afghan 
authorities, including district and provincial governors, state justice 
institutions, the police, the Independent Directorate of Local 
Governance (IDLG) and, in coordination with JTF 435, ISAF, NTM-A, and 
other military commands, including the Afghan National Security Forces. 
At the same time, attention will be paid to both traditional and state 
justice institutions in other parts of the country that have not fallen 
to insurgents and/or are more stable.
    This approach will maximize chances for successful implementation 
of programs. It recognizes the immediate justice needs of the country 
are not entirely in insurgent-affected areas. In the East, South, and 
West, the focus will be on increasing access to, and strengthening the 
capacity of, existing state justice sector institutions, as well as 
other executive branch offices involved in settling legal disputes. In 
these areas, the Afghan Government seeks to establish its authority in 
previously unstable communities. It is important to have success 
stories in these areas to foster stability, and for Afghans to 
publicize these successes.

    Question. What programs are established or planned in the near 
term, in what provinces, to strengthen the formal justice sector?

    Answer. The Afghanistan and Pakistan Stabilization strategy 
outlines an array of efforts to build the capacity of the formal 
justice sector. These include: professional training of judges and 
prosecutors; technical and advisory assistance to the Afghan Attorney 
General's Office; support to the Afghan Anti-Corruption Unit and Major 
Crimes Task Force; technical assistance and advising for the Ministry 
of Justice; and corrections sector support. These are nationwide 
efforts.
    In the provinces, our efforts focus on a ``hold-to-build'' approach 
where we work to strengthen the entire sector and expand access to it. 
In the areas of the North, East, and West, where improved security in 
some areas can enable business development and progress by civil 
society, access to justice requires building up and expanding ``islands 
of success'' in population centers. By expanding these ``islands of 
success'' and improving capacity, people seeking justice will be drawn 
from surrounding areas, particularly for civil disputes (primarily 
property-related), and serious criminal cases. Further, reducing 
corruption in the state justice sector will improve its ability to 
provide fair services and increase the legitimacy of the Afghan 
Government overall.

    Question. What role will the INL office in Afghanistan have in the 
police sector since the decision was taken last year to remove INL from 
the NTM/CSTC-A training and oversight? What reduced role will they 
play? Who will maintain oversight of the international police training 
effort?

    Answer. NATO Training Mission--Afghanistan (NTM-A)/Combined 
Security Transition Command-Afghanistan (CSTC-A) will continue to 
supervise the USG and international police training efforts in 
Afghanistan. As a key stakeholder, the Department of State will 
continue to play a vital role in Afghan law enforcement training 
through program policy, oversight, and overall direction for the police 
program through Ambassador Eikenberry. State remains ready to assist in 
advanced and/or specialized training.

    Question. The strategy makes passing mention to other foreign 
contributions to several of the sectors in Afghanistan's stabilization 
and reconstruction, and the administration has continued to seek such 
contributions especially in light of the limited military role they 
have chosen to adopt.

  <bullet> Which partners or potential partners have participated in 
        the creation of this strategy and how have they substantively 
        committed?

    Answer. The President's strategy benefited from input from a number 
of major allies and partners, and we continue to work jointly on the 
implementation of the strategy through a number of fora. In addition to 
the North Atlantic Council for ISAF issues, 35 countries and 
international organizations have appointed SRAP counterparts to 
Ambassador Holbrooke. The SRAPs meet roughly quarterly, and liaisons 
from SRAP embassies meet in Washington roughly biweekly. The EU has 
been an especially important partner in designing our civilian 
strategy, and their regional action plan, released in fall 2009, 
closely tracks and complements our Regional Stabilization Strategy.

    Question. What progress has been made in the last year in bringing 
new partners or significant increases in partner contributions of 
resources and personnel?

    Answer. We have seen substantial increases in both troops and 
financial resources.
    Troops: Nearly 10,000 additional troops have been committed since 
the President announced the U.S.'s own troop increase in December. This 
increase includes approximately 1,000 from Italy, 900 from Georgia, 600 
from Romania, 500 each from the U.K. and Germany, over 500 each from 
Poland and Spain, and 400 from South Korea. OIC countries including 
Malaysia, Jordan, and UAE are also committing new or additional 
military resources.
    Finances: Despite the international financial crisis, partners have 
sustained or increased their development assistance to Afghanistan. 
Japan made a $5 billion pledge over 5 years, Germany doubled its annual 
pledge to =430 million through 2013, and the U.K. has increased its 
pledge through 2013 by 40 percent, to <brit-pound>710 million. The 
Afghan National Security Forces also continue to receive international 
financial support. For example, Japan paid all police salaries for the 
first 6 months of 2010 and Norway pledged $110 million to the Afghan 
National Army Trust Fund and Law and Order Trust Fund.

    Question. Illicit Financial Flows have been identified as a center 
of gravity for the militant forces operating in the Pakistan and 
Afghanistan region. Though the militants have proven capable of 
operating on far fewer resources their lifelines are dependent 
nonetheless on finance that has been identified as from three sources--
financiers operating in or from the countries in the Arabian gulf 
region, proceeds from narcotics trafficking, and proceeds from criminal 
enterprise including kidnapping, extortion, robbery, and protection 
rackets.

  <bullet> How has the State Department been asked to assist other USG 
        entities in bolstering the effort to interdict these financial 
        flows?

    Answer. State has been asked to fund a portion of the law 
enforcement operations and capacity-building to interdict illicit 
finance flows. Likewise, USAID has been asked to provide and/or fund 
capacity-building efforts in the financial sector. In addition, much of 
the USG's counter-illicit-finance activity is coordinated by the State 
Department, in coordination with the Department of the Treasury, both 
in Washington and in Afghanistan.

    Question. How has State responded or how are they organizing 
themselves on this issue?

    Answer. In addition to providing interagency leadership and 
coordination as specified in the preceding question, the State 
Department provides funding to a wide variety of USG agencies to ensure 
a whole of government approach to counterterrorism finance capacity-
building initiatives. We provide funding for FIU development, bulk cash 
smuggling training, terrorist financing investigative training, 
financial regulatory training, prosecutorial development and resident 
law enforcement advisors from the USG in Afghanistan.
    Consistent with the shift in strategy to increase the focus on 
interdiction, alternative development programs and incentivized supply 
reduction efforts, State/INL provides support for the Counter Narcotics 
Police of Afghanistan and the Good Performers Initiative. INL programs 
also strengthen drug demand reduction efforts through a nationwide 
treatment delivery system and increase public information efforts 
through improved messaging campaigns.
    USAID's economic growth strategy also impacts these efforts by 
building the capacity of the Afghanistan Government to develop a 
stable, market-based economy. This is achieved primarily through 
capacity-building assistance directed to the Ministry of Finance and 
Afghanistan's Central Bank--Da Afghanistan Bank (DAB). At the Ministry 
of Finance, USAID supports budget and execution reforms, and tax policy 
and administration. At DAB, USAID supports the Bank's management of 
monetary policy, statistics, and market operations; financial 
supervision and risk management; payment systems; and accounting and 
financial management.
                                 ______
                                 

  Responses of Ambassador Richard Holbrooke to Questions Submitted by 
                      Senator Russell D. Feingold

    Question. Given that Pakistan is not moving comprehensively against 
all Taliban safe havens in that country, is there a danger that our 
military offensive in the South will have no lasting impact as 
insurgents take refuge on the other side of the border, beyond our 
reach? What steps are being taken to mitigate this danger?

    Answer. Since August 2009, Pakistan has demonstrated an 
unprecedented commitment to confronting militant groups using its 
territory as a base to launch attacks into Afghanistan and elsewhere. 
Military operations against insurgents in the North West Frontier 
Province (NWFP) and throughout the Federally Administered Tribal Areas 
(FATA) have yielded steady gains, but Pakistan has also paid a heavy 
toll--thousands of Pakistani security forces have been killed or 
wounded in these operations. Pakistan has made these heavy sacrifices 
on its own behalf because it understands that these militant groups 
threaten the existence of Pakistan itself. The recent arrests of key 
Taliban leaders further underscores the seriousness with which Pakistan 
is tackling this threat. Pakistan has also stepped up its cross-border 
military cooperation, evidenced by its representation in the two 
operating Border Coordination Centers. In light of these actions by our 
Pakistani partners, and our continued engagement with our Pakistani 
partners, we are confident our military efforts in RC-South will result 
in sustainable gains.

    Question. While we need to maintain a targeted counterterrorism 
capability in the region, I am not convinced that there is a military 
solution to the instability in Afghanistan and the region. On the 
contrary, I think the constant escalation in the use of force over the 
years has ultimately created more militancy and instability. Meanwhile, 
it is not clear to me that the Afghan and Pakistani Governments are 
pursuing the political solutions that are the best way to stabilize the 
situation. For example, in Afghanistan, the Presidential elections were 
marred by fraud. In Pakistan, although President Zardari has pushed for 
reforms in the FATA, they have fallen far short of what many experts 
say are needed. Why are we continuing to pursue a military solution 
when we still haven't been able to secure the political reforms that 
are key to stabilizing the situation?

    Answer. We are pursuing a multifaceted strategy in Afghanistan 
focused on security, economic development, and good governance. With 
the support of Congress, we are investing significantly in rehabiliting 
Afghanistan's infrastructure and strengthening the delivery of health 
and educational services. We are also working to build the capacity, 
effectiveness, and transparency of Afghanistan's Government 
institutions.
    We fully agree that there can be no military solution in 
Afghanistan absent steps to create economic opportunity and improved 
governance. Nor can there be economic or governance progress without 
improved security.
    Even in those areas hardest hit by the insurgency, our strategy in 
Afghanistan is a ``whole of government'' approach which integrates 
military and civilian components that complement each other. The 
military component of this strategy is essential, but not sufficient, 
to our efforts and draws by far the most press coverage. Military 
action provides security for the population and shapes the environment 
for our civilian efforts. There are now 900 civilians from across the 
interagency working in Afghanistan; hundreds of them in the more 
unstable provinces. This is a notable increase over the number of 
civilians in Afghanistan only a year ago and is indicative of our 
commitment to a whole of government approach.
    As in Afghanistan, U.S. assistance to the Federally Administered 
Tribal Areas (FATA) is also one piece of a multidimensional, ``whole of 
government'' approach, aimed at building provincial government 
capacity, pursuing development projects, and creating economic growth 
opportunities. While our military assistance efforts are necessary to 
clear and hold the region, our civilian assistance efforts are part of 
the ``build phase,'' a key part in stabilizing the region by 
strengthening governance in the FATA to make it less susceptible to 
hosting terrorist and insurgent groups. We are working to enhance 
planning coordination between the FATA Secretariat and the Frontier 
Corps, to better link development efforts to security gains. U.S. 
counternarcotics and law enforcement activities in FATA have centered 
on infrastructure development (roads, bridges, etc.), providing 
training, equipment, and facilities for law enforcement entities, and 
conducting programs to deter poppy cultivation.
    We fully support the political reform efforts endorsed by President 
Zardari in the FATA and recognize that rule of law and governance 
reform is necessary for sustainable stability and development in the 
FATA. We will continue to encourage the GOP to follow through on these 
and other actions.
    Recent Asistance to the FATA includes:

  <bullet> Humanitarian: Supplies and services for IDPs ($2 million in 
        South Waziristan);
  <bullet> Social/Economic Assistance: Over 900 projects since 2008 
        ($143 million);
  <bullet> Infrastructure: Roads, water, and energy ($96 million 
        committed to FATA Secretariat);
  <bullet> Law Enforcement: $4.7 million since Sept 2009 to support 
        FATA Levies (over $26 million total in past 3 years).

    Question. Admiral Mullen has testified that the primary driver of 
the conflict in Afghanistan is the lack of legitimacy in the 
government. Yet, President Karzai continues to nominate problematic 
individuals, including the recently appointed Minister of 
Counternarcotics, Zarar Ahmed Moqbel, who has reportedly tacitly 
supported corruption. Do you intend to continue to work with Mr. Moqbel 
notwithstanding these concerns?

    Answer. We will continue working with those ministers who were 
confirmed. The selection of Cabinet ministers was a very serious Afghan 
process with important implications for Afghanistan's future and 
reflects the ongoing development of Afghan Government institutions. Our 
revised counternarcotics strategy calls for building the capacity of 
the Ministry of Counternarcotics (MCN), the Ministry of Justice (MOJ), 
Ministry of Agriculture, Irrigation and Livestock (MAIL), and the 
Ministry of Interior (MOI), among others. To achieve this, we have to 
work with Minister Zarar and his counterparts in other ministries.

    Question. I understand that the State Department may have recently 
handed over responsibility for training the Afghan police to the 
Defense Department. The former Minister of the Interior has written 
that our continued reliance on the police as a paramilitary force has 
undermined its ability to serve a law enforcement function. General 
McChrystal has acknowledged that the lack of a functioning criminal 
justice system has created a vacuum that the Taliban has used to garner 
support. Ambassador Holbrooke, do you have plans to begin transitioning 
the Afghan police to a law enforcement function that would fill that 
vacuum?

    Answer. The Department of Defense has the lead for Afghan security 
forces reform, including both the Afghan National Police (ANP) and the 
Afghan National Army (ANA), since 2005. DOD is responsible for 
determining overall program requirements based on policy guidance from 
the U.S. Chief of Mission. Since 2007, DOD has transferred funding for 
police training to State. At the request of DOD, State uses these funds 
to deploy civilian police advisors to implement a training and 
mentoring program that provides basic, advanced, and specialized 
training to the ANP.
    State expects to transfer contract responsibility for police 
training to DOD's Combined Security Transition Command-Afghanistan 
(CSTC-A) in 2010 in order to streamline management of ANP training. 
With the transfer of contracting responsibility, DOD will establish a 
contract to directly provide civilian police advisers instead of 
transferring funds in order for State to do so. This programmatic 
change is in keeping with General McChrystal's report recommendations 
to the President last summer.
    As acknowledged in the Afghan National Police Strategy, drafted by 
the Afghan Government and endorsed by the international community at 
the London Conference, the Afghan police face a challenging environment 
in which they must not only enforce the laws, but provide local 
security where Afghan Army and international forces are not present. 
This need, coupled with the high casualty rates in the police, has led 
DOD and State to concur on training Afghan police for both law 
enforcement and the higher threat environment in Afghanistan. State 
will continue to participate in Afghan law enforcement training through 
policy oversight and overall direction through the U.S. Ambassador.
                                 ______
                                 

  Responses of Ambassador Richard Holbrooke to Questions Submitted by 
                      Senator Robert P. Casey, Jr.

    Question. The New York Times reprinted on January 21 that we are 
helping the Afghan Government set up a major-crimes task force in the 
Interior Ministry, which is intended to be the government's main agency 
to crack down on corruption. How much do we know about Interior 
Ministry officials working under Minister Atmar, who are charged with 
leading the anticorruption campaign? How much insight will coalition 
partners have into the ministry's anticorruption efforts?

    Answer. The United States, in conjunction with other international 
donors, is actively supporting the implementation of a Major Crimes 
Task Force (MCTF). Initiated in May 2009, the MCTF forms a critical 
element of the institutional architecture necessary to tackle 
corruption in Afghanistan, and includes a dedicated Corruption 
Investigation Unit. As of January 2010, 58 MOI and NDS investigators 
have been assigned to the MCTF, with ongoing mentoring support from the 
International Community. All Task Force members are vetted and 
polygraphed to ensure they do not have ties to the Taliban and have not 
been involved in corruption. Although initiated in May 2009, the MCTF 
is still under development--both physically and administratively. The 
formal process for enabling legislation and drafting a Memorandum of 
Understanding for staffing are underway. Mentors from the FBI, 
Department of Justice, U.K. Serious Organised Crime Agency and 
Australian Federal Police are intrinsically engaged assisting the 
Afghans with the establishment of the MCTF.
    There are ongoing concerns about corruption within the Ministry of 
Interior, as with other GIRoA Ministries; however, we believe that by 
establishing and supporting a task force that reports directly to 
Minister Atmar, and ensuring that all of the members of the Task Force 
and its supporting units are fully vetted and polygraphed, we can help 
the Afghans establish a successful anticorruption enforcement tool for 
the Government of Afghanistan.

    Question. While Afghanistan's Provincial Reconstruction Teams 
(PRTs) provide a venue for interagency coordination at the brigade 
level, several coalition military officers have told the press that 
they vary widely in their levels of effectiveness, cohesion, and 
coherence. As an example, a senior member of NATO's International 
Security Assistance Force in Afghanistan told the press in December 
that he did not believe that he or other NATO military leaders could 
align the PRTs' efforts with the NATO command's specific lines of 
operations. Instead, he felt that the PRT members' ultimate loyalties 
resided with their parent U.S. agencies or their home governments. What 
is your assessment of the level of coordination between PRTs and what 
do you think we can do to enhance PRT coordination?

    Answer. Provincial reconstruction teams (PRTs) have been an 
effective tool for stabilization in Afghanistan, strengthening 
provincial and district-level institutions and empowering local leaders 
who support the central government. In many locations, PRTs have helped 
create conditions that make increased political, social, and economic 
development possible. Throughout Afghanistan, PRTs play a vital role 
supporting counterinsurgency efforts. Under the President's new 
strategy, U.S. PRTs are for the most part cocommanded by a senior 
military officer and a senior civilian representative, and are 
integrated into military and U.S. Embassy command structures, operating 
under the joint civilian-military Regional Commands and ultimately 
under the authority of ISAF Commander General McChrystal and U.S. 
Ambassador Eikenberry. Other nations organize and resource their PRTs 
differently, but the United States has attached civilian experts from 
the State Department, USAID, and /or USDA to all coalition-led PRTs to 
help ensure a more coherent approach to building local government and 
economies.
    The overall level of coordination between PRTs is strong, and 
getting stronger over time. All PRTs share a common commitment to 
development and stabilization that is in line with the NATO/ISAF 
mission. Of course, some PRTs work more effectively than others and 
there are still areas where coordination can be improved. But 
coordination between U.S. military and civilians on PRTs has improved 
considerably as a result of an MOU between the U.S. Embassy and 
COMISAF/U.S. Forces-Afghanistan. We are establishing similar agreements 
with our coalition partners.

    Question. The State Department anticipates that the reintegration 
of Taliban insurgents into Afghan society will cost $100 million a year 
over several years--and that the funding is likely to come from the 
United States, United Kingdom, Japan, and other countries. How 
realistic do you think it is that Taliban fighters can be permanently 
reintegrated into society? Are there any particular keys to ensuring 
that success?

    Answer. Success of Afghan-led reintegration of Taliban fighters, 
their commanders and shadow government officials depends largely on 
Afghan political will, the resources backing reintegration efforts, a 
community-based approach rather than packages for individual fighters, 
and continued military pressure on the Taliban. Past reintegration 
efforts have lacked these essential elements. If these are backed by 
increased economic prosperity and Afghan Government accountability, we 
believe they can convince Taliban fighters to permanently reintegrate.
    President Karzai stated in his November 19 inauguration speech that 
his government will ``welcome and provide necessary help to all 
disenchanted compatriots who are willing to return to their homes, live 
peacefully and accept the Constitution.'' We take this as an indication 
reintegration will be an essential element to President Karzai's second 
elected term. We are prepared to support him in this effort, and are 
working with our partners, including the U.K. and Japan, to fund and 
back this Afghan-led effort. Together with our Afghan and U.K. partners 
we are also increasing military pressure on the Taliban. Last week, we 
began Operation Mushtarak, which is the first of our ``surge'' 
operations to press the Taliban.
    Our ongoing economic development and governance programs are the 
final piece of this puzzle. We believe increased government 
accountability and economic opportunity will convince Taliban fighters 
to permanently disarm and accept the Afghan Constitution.

                                  <all>

</pre></body></html>
